<html>
<title> - UNREST IN THE MIDDLE EAST AND NORTH AFRICA: RAMIFICATIONS FOR U.S. HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  UNREST IN THE MIDDLE EAST AND NORTH 
            AFRICA: RAMIFICATIONS FOR U.S. HOMELAND SECURITY

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM

                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

                           Serial No. 112-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
72-226                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Henry Cuellar, Texas
Ben Quayle, Arizona                  Brian Higgins, New York
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                                Witness

Mr. Rick ``Ozzie'' Nelson, Director and Senior Fellow, Homeland 
  Security and Counterterrorism Program, Center for Strategic and 
  International Studies:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Thomas Joscelyn, Senior Fellow and Executive Director, Center 
  for Law and Counter Terrorism, Foundation for the Defense of 
  Democracies:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Brian Katulis, Senior Fellow, Center for American Progress:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Philip Mudd, Senior Research Fellow, New America Foundation:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24


  UNREST IN THE MIDDLE EAST AND NORTH AFRICA: RAMIFICATIONS FOR U.S. 
                           HOMELAND SECURITY

                              ----------                              


                        Wednesday, April 6, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:33 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Walsh, Quayle, 
Long, Speier, Thompson, Cuellar, and Jackson Lee.
    Mr. Meehan [presiding]. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence will come to 
order. The subcommittee is meeting today to hear testimony on 
the unrest in the Middle East and North Africa and the 
ramifications on homeland security.
    As is customary, I want to take a moment to make my own 
opening statement.
    I would like to welcome everybody to today's Subcommittee 
on Counterterrorism and Intelligence for this hearing.
    I would like to begin by taking an opportunity to thank 
Ranking Member Jackie Speier on her first subcommittee hearing. 
We will be chairing this together for the first time. I look 
forward to working with you in a bipartisan manner on these 
important homeland security issues.
    I look forward to hearing from today's witnesses on the on-
going unrest in the Middle East and North Africa and its impact 
on U.S. homeland security. Just about a month ago, on March 2, 
this subcommittee met to hear testimony of the threat posed by 
al-Qaeda on the Arabian Peninsula to the U.S. homeland. One of 
the key takeaways from that hearing was the level of 
instability in Yemen and the surrounding areas.
    A lot has changed in just 1 month. Unfortunately, many of 
the predictions that we heard from the witnesses have come to 
fruition in a very short period of time, including a teetering 
government on the brink of collapse in Yemen and a decrease in 
counterterrorism cooperation.
    In addition to facing an unstable government in Yemen, the 
United States has engaged in military operations against Libya. 
The Saudis have sent troops to Bahrain. Protests growing in 
Syria. The Egyptian military has assumed control of its 
country.
    So overall, the situation in the Middle East and North 
Africa is changing by the day. All you have to do is pick up 
the morning's news to see how 24 hours can significantly shape 
and impact the region.
    This has major ramifications for United States homeland 
security, especially as it relates to counterterrorism and 
intelligence, the two areas which this subcommittee is 
responsible for overseeing.
    As I mentioned, events in Yemen present challenges for the 
United States' homeland security. Current unrest there has left 
the regime of President Saleh on the brink of collapse. 
Whatever the impression of President Saleh may be--and there 
are many who will argue that he is a flawed leader--he has been 
cooperative with the United States on counterterrorism 
priorities, particularly the fight against AQAP, providing the 
necessary intelligence to go after the enemy. As we speak, 
President Saleh struggles against insurrection, defections, and 
Yemen harbors safe haven for al-Qaeda.
    I am very concerned about what the alternatives will be and 
how that affects the United States' ability to search for and 
mitigate AQAP's ability to attack this homeland.
    In Egypt, the whole world watched peaceful demonstrations 
demand change and more individual rights. There were also 
multiple reports that prisons were emptied during the unrest 
and Islamists who took to violence in opposition to the 
previous regime had escaped.
    Quite simply, hundreds of radicalized Islamists on the 
loose throughout the Middle East and North Africa is dangerous. 
I would like to note that it was the 2006 prison break in Yemen 
that heavily contributed to the creation of AQAP, the terrorist 
organization that has now come dangerously close to attacking 
the United States.
    Last, events in Libya were completely unforeseen just 1 
month ago, and I have concerns about the United States' 
commitments that we all jointly are engaged in, but most 
importantly for the United States Homeland Security, there is 
the possibility that Colonel Gadhafi returning to terrorism, 
either as a last gasp at saving his regime or as retribution 
for U.S. military action in Libya.
    More than most other individuals in the last 30 years, 
Colonel Gadhafi has illustrated both his intent and capability 
to conduct terrorist attacks against the United States 
interests, most notably the bombing of Pan Am 103 over 
Lockerbie, Scotland.
    Just last week, the NATO supreme allied commander, Jim 
Stavridis, James Stavridis, Admiral Stavridis, told Members of 
Congress that there were flickers of involvement of al-Qaeda 
among Libyan rebels.
    This is problematic, and I believe we must exercise due 
diligence in figuring out who is included among the rebels and 
who we choose to partner with in support among opposition in 
Libya. As everyone knows, the United States armed Islamist 
opposition groups in the 1980s against the Soviet Union, a 
successful policy in the short term, but the blowback was 
severe. We must do everything we can to avoid enabling our 
enemies to attack our homeland.
    I look forward to hearing from this distinguished panel, 
and I now recognize the Ranking Member, Ms. Speier of 
California, for her 5-minute opening statement.
    Ms. Speier. Mr. Chairman, thank you for holding this 
hearing. I, too, look forward to working with you in a very 
bipartisan fashion that is consistent with this subcommittee in 
the past. I also want to thank our distinguished panel of 
witnesses for being here. We know that you will shed great 
light on this issue.
    Over the last few months, we have witnessed an 
unprecedented wave of unrest and revolutionary fervor--furor in 
North Africa and the Middle East, including among some of our 
long-time allies. We have now joined in military action in 
Libya to prevent a humanitarian crisis.
    We know the wave of unrest spreading across the region 
began with one person's frustration and sense of 
disenfranchisement, but the underlying symptoms of corruption, 
alienation, and oppression have long plagued the area. In the 
blink of an eye, the regimes in Tunisia and Egypt have been 
toppled, and protest movements have erupted in Jordan, Bahrain, 
Syria, and others, and their fates remain to be determined.
    In this hearing, we are examining important questions about 
how these events will influence the on-going international 
terrorist threat and our counterterrorism efforts across the 
region and the implications for our efforts here at home.
    For the first time in decades, relationships that we have 
relied on in the fight against terrorism are changing. In some 
cases, we have to work with new partners who will not 
necessarily respect past security agreements and practices. How 
do we most effectively bridge the divide between the old and 
new governments?
    Egypt and Tunisia, for example, have reportedly disbanded 
their long-feared state security forces. How will this affect 
our long-standing security relationship and joint 
counterterrorism efforts?
    There may also be political vacuums for prolonged periods 
of time in many of these countries, leaving open the 
possibility for terrorist groups to exploit the lack of 
coordinated operations and intelligence sharing.
    Of course, any change, and particularly unplanned-for 
revolutionary changes, present us with challenges, as well as 
opportunities. It is critical that we work with the new leaders 
to ensure that they not only have effective counterterrorism 
policies, but they respect the human rights of their own 
populations, as well.
    For too long, we have supported Middle East regimes with 
blinders on, fearing the alternatives would be far worse. 
Unfortunately, these blinders resulted in us being caught by 
surprise by what was actually happening on the streets, and now 
we are left scrambling to answer critical questions like: Who 
is taking power in Egypt, Tunisia, and Yemen? Who is the Muslim 
Brotherhood? Who are the rebels in Libya?
    As we seek to answer these basic questions and define our 
approach to a reshuffled Middle East and North Africa, we must 
support the democratic ambitions of the people, while being 
pragmatic in our assessment of the threats to our homeland.
    In Yemen, al-Qaeda and the AQAP is already capitalizing on 
the unrest by consolidating their power in the tribal regions 
outside the capital. We know that President Saleh is too 
consumed with his own political survival to make AQAP a 
priority and has even diverted counterterrorism forces to 
protect the last remnants of his regime. With or without 
President Saleh, we must continue to work with Yemen to combat 
AQAP as it attempts to plot against the homeland.
    In Libya, we must ensure that the flickers of al-Qaeda 
activity, as described by Admiral Stavridis, do not grow and 
subvert the efforts by the rebels to secure greater freedoms.
    Similarly, we must keep a close eye on Colonel Gadhafi, an 
unpredictable dictator with a long history of supporting 
terrorism, including allowing and supporting terrorist training 
camps on Libyan soil.
    In Egypt, we need more information on the thousands of 
inmates that were released or escaped from prison during the 
protests and whether they have ties to terror organizations.
    But before we jump to conclusions, we must have the facts 
to differentiate terrorist groups from other legitimate and 
indigenous political organizations. In Syria, we have a state 
sponsor of terrorism that could fall, opening the door for 
Hamas and Iran-backed Hezbollah to take advantage of the chaos.
    While the outlook may appear grim and the uncertainty 
overwhelming, many still believe that democracy is not a friend 
to al-Qaeda or its affiliates. Some jihadist propaganda, 
including the latest edition of AQAP's Inspire magazine, is 
saying otherwise, so we must better understand what we can do 
to ensure that these democratic movements do not develop into 
potential recruiting grounds for violent extremism.
    Overall, we still know very little about how the terrorist 
threat may evolve, so we must keep a watchful eye as the events 
continue to unfold. We cannot afford to be caught off-guard 
again, as was the case when the protests started. Once we 
learned that the terrorist threats are changing, so must our 
counterterrorism efforts. We must take a hard look at our old 
and new partners in the region and re-evaluate our 
counterterrorism strategy as necessary.
    While protecting the homeland also begins abroad, we must 
also ensure our Federal, State, and local officials here at 
home are aware of the change in security environment and have 
the information and resources they need to keep America safe.
    With that, I look forward to hearing from the witnesses 
about the challenges and opportunities ahead, and I yield back.
    Mr. Meehan. Thank you, Ms. Speier.
    We are also very grateful that we have in attendance today 
the Ranking Member, Mr. Thompson of Mississippi, and as the 
tradition of the committee, we will invite Mr. Thompson to make 
an opening statement, if he would like to do so.
    Mr. Thompson. I would. Thank you, Mr. Chairman, for holding 
this timely hearing.
    First, I want to welcome the gentlewoman from California, 
Ms. Speier, the new Ranking Member of the subcommittee. I look 
forward to working with her.
    I would also like to recognize some uniform fire service 
people from my home State of Mississippi, who are also in 
attendance at the hearing this morning.
    I have no doubt, however, that Ms. Speier will continue the 
great work on this subcommittee and look forward to working 
with her in her new role. As I understand, this is your maiden 
hearing.
    Ms. Speier. It is my maiden hearing.
    Mr. Thompson. Absolutely. Okay. So I am also looking 
forward to our witnesses and their testimony today.
    There are many questions about how the events unfolding in 
the Middle East and North Africa will impact us at home today. 
The situation is changing every single day, and tyranny is 
being challenged in all corners of the region.
    Two countries have already removed their leaders, and the 
people have begun the process of rebuilding their countries in 
a more equitable way. In Yemen, the people are still fighting 
to change the status quo and gain more economic and political 
freedoms for all. In Libya, rebels, with the help of NATO, are 
struggling to end the 42-year rule of a ruthless dictator.
    Because of the fragile conditions in the region, however, 
we have to be smart about how we frame the issues and how we 
react to developments. We must work to ensure that our words 
and actions do not inflame an already hostile environment. We 
also must operate with facts and sound intelligence, not 
hyperbole and speculation.
    While we embrace the spread of democracy across the Middle 
East and North Africa, we must also be realistic about the 
challenges ahead. Many countries have suspended their 
constitutions, dismissed their governments, and replaced their 
ruling parties. In some cases, we will have a blank slate to 
work with. In many, we may need to build new alliances to forge 
effective counterterrorism partnerships.
    But with a growing thirst for democracy now on our side, 
these challenges can be more freely addressed. Nonetheless, the 
terrorists also seek to take advantage of the chaos. Al-Qaeda 
and their affiliates have also applauded the unrest just as 
loudly as we have, but their applause rings hollow.
    Like many experts, I believe the uprising represents the 
people's aspirations for greater political rights and economic 
opportunities, not for extremism and violence. These terrorists 
seem to be grasping for relevancy in a mass movement that is 
largely passing them by.
    Still, we must remain vigilant and guard against these 
small, but vocal strains of evildoers, because while the threat 
of terrorists exploiting the instability is real, the 
possibilities for good are endless.
    Mr. Chairman, with that, I yield back.
    Mr. Meehan. Thank you, Mr. Thompson.
    I want to remind the other Members of the committee that 
they may submit opening statements for the record, if they 
would choose to do so.
    Now, we are pleased to have what will ultimately be four 
distinguished witnesses before us today on this important 
topic. Mr. Mudd informed us that he would be on his way earlier 
yesterday, and I am looking forward to the testimony from each 
of you. Let me remind you that the entire written statement 
that you give today will appear in the record.
    Today's first witness is Mr. Ozzie Nelson. Mr. Nelson is 
the director of homeland security and counterterrorism program 
and a senior fellow in the International Security Program at 
the Center for Strategic and International Studies. Mr. Nelson 
is a former Navy helicopter pilot with over 20 years of 
operational and intelligence experience, including assignments 
on the National Security Council and at the National 
Counterterrorism Center. His work at CSIS focuses on 
counterterrorism, homeland security, and defense-related 
issues.
    Mr. Nelson, you are now recognized to summarize your 
testimony for 5 minutes.

STATEMENT OF RICK ``OZZIE'' NELSON, DIRECTOR AND SENIOR FELLOW, 
  HOMELAND SECURITY AND COUNTERTERRORISM PROGRAM, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Nelson. Thank you very much.
    Chairman Meehan, Ranking Member Speier, Members of the 
committee, thank you for the opportunity to testify.
    Context is important when considering how unrest in the 
Middle East and North Africa will influence al-Qaeda 
specifically and Islamist terrorism generally. It makes little 
sense to talk in vague terms about recent events signaling the 
demise or revival of al-Qaeda in the region, because al-Qaeda 
and its affiliates differ significantly based on the local 
environments in which they operate and the local grievances 
that drive their agendas.
    Al-Qaeda's senior leadership has proven time and time again 
to be a creative and adaptive adversary. Where chaos exists, so 
too does opportunity. Moving forward, I will touch on Libya, 
Egypt, and Yemen.
    In Libya, much remains unknown about the rebels and their 
political organization. Still, there have been reports that at 
least some members of the opposition forces are affiliated with 
al-Qaeda. This raises some important considerations.
    First and foremost is the possibility that al-Qaeda 
elements could seize power in a post-Gadhafi Libyan government. 
Fortunately, the rebel movement appears diverse enough to 
forestall this possibility. A far more realistic possibility is 
that a protracted Libyan civil war may produce sufficient chaos 
to allow for the development of legitimate terrorist cells in 
the eastern part of the country.
    Al-Qaeda and its affiliates, its allies notoriously exploit 
territories with weak central governments, carrying out--
carving out physical safe havens that facilitate training and 
operational planning. Nascent terrorist cells in eastern Libya 
could still further destabilize already turbulent North Africa 
by creating a new base of support within the larger al-Qaeda 
movement.
    There are also concerns about Gadhafi returning to his 
rule, and the Chairman and the Ranking Member mentioned that. 
This gives us few appealing options for U.S. counterterrorism 
policy as it relates to Libya. Despite his about-face on 
combating terrorism in Libya, Gadhafi's actions make his long-
term presence untenable.
    Officials understand that any sort of ground invasion would 
only serve to fuel al-Qaeda's toxic narrative of a war between 
West and Islam. Al-Qaeda uses this narrative as a major 
recruiting tool, so the Obama administration has been smart to 
reject outright the idea of large-scale intervention.
    In deploying force, the United States and NATO have also 
wisely resisted calls to immediately arm rebel forces. 
Officials may eventually decide that this is the right course 
of action. Until then, the no-fly zone is buying time for 
authorities to learn more about the goals of the rebel forces.
    In Egypt, terrorism-related concerns are focused squarely 
on the role of the Muslim Brotherhood, which is likely to play 
a role in a post-Mubarak government and society. The uprisings 
in Egypt have been met with public concern over the possibility 
of the Muslim Brotherhood coming to control the affairs in 
Cairo.
    Were the Muslim Brotherhood actually to gain power in 
Egypt, it would face the burden of governing a society that is 
demanding jobs and reliable services and openness in 
government, the same underlying demands that have ignited the 
revolution. It is reasonable to expect that the burden of 
governing would temper the Brotherhood's Islamist political 
ambitions.
    Many of the fears--growing protests--moving on to Yemen--
growing protests against the rule of President Saleh pose 
legitimate questions about how AQAP may take advantage of 
regime change in Yemen. Saleh and the security services have 
been the lynchpin of U.S. counterterrorism strategy in Yemen. 
As such, recent commentary on Yemen's political crisis has 
tended to focus on the risks inherent in a Saleh's resignation, 
specifically, that al-Qaeda in the Arabian Peninsula would 
enjoy even more freedom to operate.
    I would argue that political upheaval in Yemen is a concern 
with regard to AQAP irrespective of any damage done by the 
removal of Saleh. It is not at all clear that the Yemeni 
president has been an effective partner in combating terrorism. 
One Middle East observer recently noted that Sana'a's 
government has failed to capture or kill a single al-Qaeda 
leader in the last 2 years.
    Instead, the regime has directed much of its attention to 
Yemen's other security challenges, which include an insurgency 
in the north and the separatist movements in the south.
    Yemen's litany of political, social, and economic 
challenges, combined with AQAP's growing strength, means that 
there are no easy counterterrorism solutions. To the greatest 
extent possible, the United States must engage local Yemenis 
directly affected by AQAP's activities, not just the government 
in Sana'a, as an attempt--an attempt to isolate AQAP.
    Beyond the limited scope of counterterrorism operations, 
the United States and its partners must address the underlying 
political, and social, and economic sources of Yemen's 
instabilities.
    Regarding broader considerations for U.S. counterterrorism 
policy, recent events give us--in discussing how terrorism 
threats intersect with regional unrest, there has been a 
tendency to worry about a terrorist takeover of certain 
governments or states. In reality, this should never be the 
chief concern.
    Despite their potential for major attacks with 
destabilizing consequences, al-Qaeda and its affiliates remain 
marginal movements within the Middle East and North Africa. 
These groups will never command anything close to the popular 
support necessary to govern a modern state.
    Instead, we should--still, we should not underestimate al-
Qaeda's lethality and maniacal focus on attacking the United 
States and the West. Al-Qaeda and other terrorist organizations 
most stand to benefit from the emergence of a chaotic, 
factious, and ungoverned territories, whereupon these groups 
seek to establish safe havens for training and operational 
planning.
    I look forward to answering of the committee's questions, 
and again, I appreciate your time.
    [The statement of Mr. Nelson follows:]
              Prepared Statement of Rick ``Ozzie'' Nelson
                             April 6, 2011
    Chairman Meehan, Ranking Member Speier, Members of the committee, 
thank you for the opportunity to testify today. The past several months 
have brought extraordinary change to the Middle East and North Africa, 
and it is most appropriate that we examine how a broad array of 
political, social, and economic transformations in the region may 
affect U.S. National interests, particularly as these interests relate 
to homeland security and counterterrorism.
    Context is important when considering how unrest in the Middle East 
and North Africa will influence al-Qaeda specifically and Islamist 
terrorism generally. It makes little sense to talk in vague terms about 
recent events signaling the demise or revival of al-Qaeda in the 
region, because al-Qaeda and its affiliates differ significantly based 
on the local environments in which they operate and the local 
grievances that drive their agendas. I commend the committee for 
framing today's hearing in a manner that allows for discussion of 
specific countries, and in this vein, I will begin my remarks by 
examining the terrorism dimensions at play in Libya, Egypt, and Yemen, 
respectively.
    As committee members and my fellow witnesses also know, al-Qaeda 
senior leadership has proven time and again to be a creative and 
adaptive adversary; where chaos exists, so too does opportunity. Given 
al-Qaeda's transnational operations and aspirations, I will conclude my 
remarks with some broader observations about the implications that 
today's unrest have for U.S. counterterrorism strategies in the Middle 
East and North Africa.
             terrorism concerns in libya, egypt, and yemen
    Concerns over terrorism underpin one of the most pressing questions 
surrounding U.S. and NATO involvement in Libya: Whether the Obama 
administration and its European counterparts should more actively 
support rebel forces in their bid to depose Col. Muammar al-Qaddafi. 
Much remains unknown about the rebels and their political organization, 
the Transitional National Council. Still, there have been reports that 
at least some members of the opposition forces are affiliated with al-
Qaeda. This fact raises some important considerations for U.S. and NATO 
policy in Libya.
    First and foremost is the possibility that al-Qaeda elements could 
seize power in a post-Qaddafi, putatively rebel-led, Libyan government. 
Fortunately, the rebel movement appears diverse enough to forestall 
this possibility. A far more realistic possibility is that a protracted 
Libyan civil war may produce sufficient chaos to allow for the 
development of legitimate terrorist cells in the eastern part of the 
country. Al-Qaeda and its allies notoriously exploit territories with 
weak central governments, carving out physical safe havens that 
facilitate training and operational planning. A chief concern is that 
Algerian-based al-Qaeda in the Islamic Maghreb (AQIM), a formal al-
Qaeda affiliate, might team up with Libyan rebel factions sympathetic 
to terrorism. Even absent coordination with an al-Qaeda affiliate like 
AQIM, nascent terrorist cells in eastern Libya still could further 
destabilize already turbulent North Africa by creating a new base of 
support within the larger al-Qaeda movement. Finally, given the recent 
history of Libyan extremists traveling to Iraq as foreign fighters, the 
growth of terrorist cells in the eastern part of Libya could mean 
another influx of foreign fighters into other conflict zones across the 
region.
    As if deciphering rebel intentions were not enough, there are also 
concerns about whether Qaddafi might return to terrorism should he 
maintain his rule. In his lengthy reign, Qaddafi has been implicated in 
state-sponsored terrorism on multiple occasions, as with the bombing of 
Pan Am Flight 103. In recent years, he has combatted Islamist terrorism 
within Libyan borders, often working in harmony with Western goals. But 
now that hostilities have reignited between Qaddafi and the West, it is 
entirely conceivable that the Libyan leader may abandon that sort of 
cooperation should he remain in power.
    These facts suggest few appealing options for U.S. counterterrorism 
policy as it relates to broader Western strategies in Libya. Despite 
his about-face on combatting terrorism within Libya, Qaddafi's recent 
actions make his long-term presence in the country untenable. Even 
though the United States and NATO do not seem to be currently 
discussing military operations in terms of regime change, we should not 
be surprised to see Western policy ultimately evolve to include a 
broader set of options for removing Qaddafi from power. Until then, 
deliberative action--like that currently being pursued by the United 
States and NATO--offers the surest course to mitigating terrorism risks 
in Libya.
    Officials understand that any sort of ground invasion would only 
serve to fuel al-Qaeda's toxic narrative of a war between the West and 
Islam. Al-qaeda uses this narrative as a major recruiting tool, so the 
Obama administration has been smart to reject outright the idea of 
large-scale intervention. In deploying force, the United States and 
NATO have also wisely resisted calls to immediately arm rebel forces. 
Officials may eventually decide that this is the right course of 
action; until then, the no-fly zone is buying time for authorities to 
learn more about the makeup and goals of the rebel forces, which is 
essential to do before arming any group of militants with possible 
terrorist connections.
    Egypt, meanwhile, faces a much different set of issues than does 
its neighbor to the west. While terrorism-related concerns in Libya 
center on a largely-unknown threat, those in Egypt are focused squarely 
on the role that the Muslim Brotherhood is likely to play in a post-
Mubarak government and society. The uprisings in Egypt have been met 
with public concern over the possibility that the Muslim Brotherhood, 
one of the world's oldest, largest, and most influential Islamist 
political groups, might come to control political affairs in Cairo. 
These fears are founded on the Brotherhood's historical ties to 
terrorism and the organization's belief in Sharia, or Islamic law.
    Still, the Muslim Brotherhood long ago renounced violence, and the 
organization has an antagonistic relationship with al-Qaeda, especially 
its No. 2 in command, Ayman al Zawahiri, himself an Egyptian. Were the 
Muslim Brotherhood to gain actual power in Egypt, it would face the 
burden of governing in a society that is now demanding jobs, reliable 
services, and openness in government, the same underlying demands that 
ignited the revolution. It is reasonable to expect that this burden to 
govern would temper the Brotherhood's Islamist political ambitions. 
Finally, the Egyptian military remains firmly entrenched, and is likely 
to cede power to elected civilians only through a gradual process of 
reforms. It is hard to imagine a situation in which the Egyptian 
military would abide a civilian government, especially one controlled 
by the Muslim Brotherhood, which moved to become a state sponsor of 
terrorism.
    A more serious terrorism threat is posed by the categorical release 
of thousands of Egyptian prisoners, some of whom have extremist 
connections, over the past few months. In early March, it was reported 
that as many as 17,000 prisoners had been freed since Egypt's uprisings 
began.\1\ While there are no reliable statistics on what percentage of 
these individuals are tied to terrorism, there have been reports of 
former prisoners associated not just with the Muslim Brotherhood, but 
also with Hamas and Hezbollah. The impact of categorical prison 
releases, then, may be felt not just in Egypt but in the larger region, 
in places like Israel and Lebanon, as recently-freed militants 
reconstitute connections with known terrorist groups or forge new 
partnerships.
---------------------------------------------------------------------------
    \1\ Michael Scheuer, ``Why the Mideast revolts will help al-
Qaeda,'' Washington Post, March 4, 2011, http://www.washingtonpost.com/
wp-dyn/content/article/2011/03/04/AR2011030402322.
html.
---------------------------------------------------------------------------
    Many of the fears surrounding prison releases in Egypt stem from 
the recent experience in Yemen, the third country under consideration 
at today's hearing. A February 2006 prison break in Sana'a freed a 
number of jailed militants, injecting key leaders into al-Qaeda's 
efforts to reconstitute its capabilities on the Arabian Peninsula. The 
prison break ultimately facilitated the unification of disparate Saudi 
and Yemeni terrorist cells under the banner of al-Qaeda in the Arabian 
Peninsula (AQAP) in 2009. Today AQAP is considered one of the most 
lethal al-Qaeda affiliates; the group's potential for regional and 
global attacks helps explain why so many counterterrorism experts view 
political instability in Yemen as one of the most challenging 
developments in the Middle East and North Africa.
    Growing protests against the rule of President Ali Abdullah Saleh 
pose legitimate questions about how AQAP might take advantage of regime 
change in Yemen. Saleh and his security services have been the lynchpin 
of U.S. counterterrorism strategy in Yemen, especially since the 2009 
``Christmas day'' plot, after which the Obama administration doubled 
counterterrorism assistance to the government in Sana'a. As such, 
recent commentary on Yemen's political crisis has tended to focus on 
the risks inherent in a Saleh resignation--specifically, that AQAP 
would enjoy even more freedom to operate.
    I would argue that political upheaval in Yemen is a concern with 
regard to AQAP irrespective of any damage done by the removal of Saleh. 
It is not at all clear that the Yemeni president has been an effective 
partner in combatting terrorism. One Middle East observer recently 
noted that the Sana'a government has ``failed to kill or capture a 
single al-Qaeda leader in the last two years.''\2\ Instead, the regime 
has directed much of its attention to Yemen's other security 
challenges, which include an insurgency in the north and a separatist 
movement in the south. As Saleh has remained preoccupied with these 
domestic battles, Yemen's economy, which already was facing looming 
natural resource shortages, has continued its nosedive.
---------------------------------------------------------------------------
    \2\ Ellen Knickmeyer, ``So Long, Saleh: Let's be honest: We don't 
need the Yemeni president to fight al-Qaeda,'' Foreign Policy, February 
10, 2011, http://www.foreignpolicy.com/articles/2011/02/09/
so_long_saleh?page=full.
---------------------------------------------------------------------------
    Yemen's litany of political, social, and economic challenges, 
combined with AQAP's growing strength, means that there are no easy 
counterterrorism solutions to be had in the country. To the greatest 
extent possible, the United States must engage local Yemenis directly 
affected by AQAP's activities, and not just the government in Sana'a, 
in an attempt to isolate AQAP. Beyond the limited scope of 
counterterrorism operations, the United States and its partners must 
address the underlying political, social, and economic sources of 
Yemen's instability; doing so will have the greatest long-term impact 
in mitigating extremist violence in the country. Working through 
entities like ``Friends of Yemen,'' a collection of Gulf Cooperation 
Council (GCC) members and Western nations, will be essential to success 
in this endeavor. For example, Saudi Arabia channels up to $2 billion 
per year in development aid to Yemen; the United Arab Emirates 
contributed just under $1 billion last year. These countries can prove 
particularly helpful in implementing political and socioeconomic 
reforms, given their deep ties to Yemen's people and institutions.
 broader considerations for u.s. counterterrorism policy in the middle 
                         east and north africa
    While the cases of Libya, Egypt, and Yemen differ in significant 
ways, recent events in those three countries suggest some broader 
considerations for U.S. counterterrorism policy in the Middle East and 
North Africa. In discussing how terrorism threats intersect with 
regional unrest, there has been a tendency to worry about a terrorist 
``takeover'' of certain governments or states. In reality, this should 
never have been the chief concern. Despite their potential for major 
attacks with destabilizing consequences, al-Qaeda and its affiliates 
remain marginal movements within the Middle East and North Africa. The 
groups will never command anything close to the popular support 
necessary to govern a modern state.
    Still, we should not underestimate al-Qaeda's lethality and 
maniacal focus on attacking the United States and the West. Al-Qaeda 
and other terrorist organizations most stand to benefit from the 
emergence of chaotic, factious, or ungoverned territories, whereupon 
these groups seek to establish safe havens for training and operational 
planning. This was the case in Iraq in the mid-2000s, and it is the 
case in Yemen today. Outside the region, al-Qaeda affiliates have taken 
advantage of political instability to establish training zones in 
places like northwestern Pakistan and Southeast Asia.
    This trend has important implications for U.S. counterterrorism 
policy in the Middle East and North Africa today. American policy has 
long leveraged relationships with friendly autocrats in the region; 
these arrangements were thought to provide the stability necessary to 
ensure U.S. economic and security interests. Especially since 9/11, 
these partnerships have often produced tangible counterterrorism 
successes. At the same time, however, such policies have served as a 
key component of al-Qaeda's ideology--that the United States is 
purportedly complicit in supporting so-called ``apostate regimes'' and 
denying freedoms to Muslim peoples. Furthermore, the recent uprisings 
have demonstrated that an over-reliance on autocrats can actually lead 
to great instability, just the opposite of what American policymakers 
seek.
    We are now faced with a rare historical moment--and a strategic 
opportunity--in which the political, social, and economic aspirations 
of Middle East and North African publics are aligned more closely with 
U.S. interests than ever before. Long-term, the best deterrent to al-
Qaeda and other terrorist groups will be the development of stable, 
prosperous, and free societies in the Middle East and North Africa. 
That goal is far easier said than done, and how to formulate a 
comprehensive strategy is beyond the scope of my testimony. Still, I 
want to close by reflecting on one issue, in particular: the continued 
importance of U.S. engagement and investment in the region.
    It may be tempting to view the recent uprisings, especially those 
against U.S.-backed authoritarian regimes, as a repudiation of American 
policy in the Middle East and North Africa. But such an assessment 
would miss an important part of the story. Here, it is helpful to 
reconsider Egypt. As mentioned earlier, the Egyptian military remains 
the one consistent, stabilizing force in the country, and is being 
relied upon to help implement progressive reforms. The military is in a 
position to guide the country through its present turmoil largely 
because of decades of U.S. and international bureaucratic and financial 
investment in Egypt's security structures. For the United States, the 
problem in its policies toward Egypt has not been so much the fact of 
partnership with the ruling powers, but rather the decision not to make 
American support contingent on the implementation of gradual reforms in 
Egyptian society.
    Libya and Yemen, on the other hand, demonstrate how a lack of long-
term U.S. investment can limit American options in times of crisis. 
After successfully convincing Qaddafi to give up nuclear weapons in 
2003, the United States had an opportunity to further cultivate its 
relationship with Libya around more than just a narrow counterterrorism 
construct. Enhanced engagement with Tripoli could have included a major 
push for political, social, and economic reforms. Instead, an 
opportunity was missed and the United States is now forced to confront 
a chaotic, war-torn Libya. In Yemen, the United States has stepped up 
its engagement in recent years, but problems of the magnitude that 
Yemen faces require a comprehensive, long-term strategy for engagement 
with meaningful investments in political, social, and economic reforms. 
To this end, the United States must work with those partners that have 
a vested interest in regional stability, especially GCC members.
    Right now, the Obama administration has a narrow window in which to 
better align U.S. counterterrorism goals with the aspirations of 
millions of Muslims in the Middle East and North Africa. The key to 
doing this will be in understanding that security assistance and 
liberalization are not mutually exclusive, but rather complementary. I 
want to thank the committee for inviting me to testify today, and look 
forward to taking your questions.

    Mr. Meehan. Thank you, Mr. Nelson.
    Our next witness is Mr. Thomas Joscelyn, a senior fellow 
and executive director for the Center for Law and 
Counterterrorism at the Foundation for Defense of Democracies. 
Mr. Joscelyn is a senior fellow and executive director of the 
Center for Law and Counterterrorism at the foundation. He is a 
terrorism analyst and a writer living in New York.
    Most of his research and writing is focused on how al-Qaeda 
and its affiliates operate around the world. He is a regular 
contributor to the Weekly Standard and is a senior editor of 
the Long War Journal. His work has also been published by the 
National Review Online and the New York Post, and a variety of 
other publications.
    Mr. Joscelyn is an author of ``Iran's Proxy War Against 
America,'' a short book published by the Claremont Institute 
that details Iran's decade-long sponsorship of America's 
terrorist enemies. He makes regular appearances on radio 
programs around the country, as well as on MSNBC.
    Mr. Joscelyn, thank you for being here today, and we will 
now recognize you to summarize your testimony.

   STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW AND EXECUTIVE 
DIRECTOR, CENTER FOR LAW AND COUNTER TERRORISM, FOUNDATION FOR 
                   THE DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you, Chairman Meehan, and thank 
you, Ranking Member Speier, for having me here today. I am not 
going to read from my written testimony. I am just going to 
talk a little bit about your opening statements, because I find 
a lot of room for agreement, actually, with what you had 
brought up, particularly Ms. Speier, when it comes to the long-
term blinders that you see in our society in terms of dealing 
with these regimes in the Middle East.
    Really what we are seeing here is really the tension 
between long-term strategic interests and short-term National 
security concerns. I would say in the long term, dealing and 
backing a lot of these dictatorships has not produced the type 
of stability or produced the type of security that we would 
want.
    As we can see, you know, Hosni Mubarak was a decades-long 
dictator in Egypt. He was toppled by some protestors in Tahrir 
Square in a matter of weeks. That is not stability.
    So looking at our strategy going forward, I think America 
and the United States has to stand for something beyond just 
the short-term approach to dictatorships and backing them and 
sort of giving them sort of carte blanche to deal with their--
the way they deal with the internal dynamics of their 
societies.
    That said, looking at the short-term National security 
concerns--and this is why I think this is a homeland security 
issue--each one of these revolutions, each one of these 
protests does raise legitimate National security concerns in 
the short term.
    I would say--let's start with Libya, where I think the 
Obama administration has rightly intervened to prevent a 
humanitarian crisis. As my colleague here said and noted 
correctly, I would say, there is a lot unknown about the rebels 
in Libya, but I would say this. The Transitional National 
Council--and if you look at the senior leadership there--they 
are not al-Qaeda, obviously. You can look at who they are and 
what they stand for. They are not, you know, the types of 
people we should be worried about, in my opinion.
    If you look, however, at the Darnah crowd in eastern Libya, 
who is increasing--to press reports have noted are providing 
the muscle, basically, for the opposition in fighting against 
Gadhafi's forces, there are legitimate concerns about who those 
people are. I can talk a little bit further about that, if we 
get into it.
    But if you look at the leadership there in Darnah, which is 
a long-term hotbed for Islamists and jihadist beliefs, if you 
look at the leadership of who is running Darnah, who is 
training the rebels in Darnah, there are legitimate concerns 
about these people. Going forward, I would say that the United 
States has to take an approach of, we have to be concerned 
about what we do with this crowd. You know, do we arm them? Do 
we do any of the types of things that have been discussed? You 
have to be very careful in dealing with these people and who we 
are actually backing.
    All that said, Libyan dictator Gadhafi is not exactly a 
partner in the war on terror. You know, he has sort of been 
portrayed this way in the on-going politicized debate over 
this, but I want to provide one quick note in the--my written 
testimony that I would like to bring to the fore on this.
    Colonel Gadhafi, in fact, back in 2003, got into a shouting 
match on international television with Crown Prince Abdullah of 
Saudi Arabia, after which Gadhafi turned to al-Qaeda and hired 
al-Qaeda for $2 million to try and kill Crown Prince Abdullah. 
This is all documented by the U.S. Treasury Department, court 
records, various press accounts.
    That is the type of dictator you are dealing with in Libya, 
okay? This is not a guy who is a valid partner, I would say, 
against al-Qaeda. Even though al-Qaeda would love to, I am 
sure, off Gadhafi tomorrow, this is not the type of guy who you 
can count on to be a real partner in the war on terror.
    Going to Yemen, it is an incredibly complicated situation. 
President Saleh is an uneven and duplicitous character, I would 
say. His cooperation has been incredibly problematic.
    I understand why there is this real tentativeness about 
dealing with Saleh and calling for his ouster or calling for 
the end of his regime, but I would say there, if you look at 
his whole history and the people who back him and his power, 
his power--his political--the political people who back him are 
in many ways the people we are concerned about anyway. In other 
words, if he were to fall, if he were to--if his regime were to 
come to an end tomorrow, if he were no longer the president of 
Yemen, basically the people who were backing him are probably 
the people who would orchestrate the guy who would supplant 
him.
    It is his dealings with those people that are really the 
problem in Yemen anyway. We can get into that a little further.
    In Egypt, I would say, my big concern with Egypt is, is 
this: I think in the short term and in the long term, 
obviously, the Muslim Brotherhood is going to acquire some 
representation in whatever new form of government comes to 
power. I think that is understandable.
    The problems I have there are two-fold. One, I think that 
we have to worry about the military, and the Muslim Brotherhood 
basically co-opting and putting an end to all the other types 
of dissidents and opposition and legitimate political interests 
that we have to--that should achieve representation in Egypt.
    On the second hand, we should--as Bernard Lewis recently 
said in a Wall Street Journal column, during an interview, we 
should have no delusions about what the Muslim Brotherhood is 
or what it represents or what it wants. You are talking about 
one of the institutions that is one of the foremost advocates 
of suicide bombings on the planet.
    So in the short run, I think we are going to have real 
problems in terms of how Egypt pans out, in terms of our 
counterterrorism cooperation there. But, again, going back to 
the long-term interests that I think Ranking Member Speier has 
rightly addressed, it doesn't mean that you look the other way 
or don't stand for something else in Egypt or any of these 
other countries.
    With that, I will conclude my testimony.
    [The statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                             April 6, 2011
    Mr. Chairman and Members of the subcommittee, I want to thank you 
for asking me to testify today.
    Understandably, there is widespread trepidation about the events 
unfolding in the Middle East. Many fear that the removal of the 
region's longstanding leaders will lead to something worse--that is, 
the rise of al-Qaeda or like-minded organizations. However, while there 
is always potential for al-Qaeda to take advantage of political 
instability, we should not view recent developments as purely a contest 
between dictators (or autocrats) and jihadists. From Yemen to Tunisia, 
there are other political actors struggling for a say in how their 
country is run. It is important that America and the West embrace these 
people and lend them support where appropriate.
    After all, the current unrest was not started by al-Qaeda, or any 
other malevolent actor. It began when a Tunisian street merchant set 
himself on fire to protest harassment by the local police. The mass 
protests that followed have exposed a fundamental truth about the 
Middle East that is often missed: The region's regimes were not stable 
because there are millions of Muslims who do not wish to live under an 
autocracy.
    This is an important observation to keep in mind when discussing 
America's counterterrorism efforts. For too long, policymakers have 
assumed that unequivocal support for men such as Hosni Mubarak is our 
only option. But it is obvious now that relying on such leaders is not 
a viable long-term solution. The faux stability of Mubarak's regime 
was, for instance, swept away in just a few short weeks after decades 
of rule.
    With that perspective in mind, there certainly are bad actors who 
seek to capitalize on the unrest. Below, I will briefly outline some of 
the issues that may arise, from a counterterrorism perspective.
                                 libya
    The Libyan opposition is comprised of various interests and 
personalities, many of whom are secular-minded and no friend to al-
Qaeda.
    The most worrisome rebels, however, are located in eastern Libya. 
The city of Derna, in particular, is a known jihadist hotspot and 
contributed a large number of fighters to the Iraqi insurgency. Derna's 
rebel forces are currently led by three former members of the Libyan 
Islamic Fighting Group (LIFG), a known al-Qaeda affiliate.\1\ And the 
man who is reportedly training Derna's rebels, Sufyan Ben Qumu, was 
formerly held at Guantanamo.\2\ In declassified memos prepared at 
Guantanamo, U.S. officials alleged that Qumu joined al-Qaeda in the 
early 1990s, after leaving the Libyan Army, and spent the next decade 
serving the jihadist terror network in various capacities.\3\
---------------------------------------------------------------------------
    \1\ Charles Levinson, ``Ex-Mujahedeen Help Lead Libyan Rebels,'' 
The Wall Street Journal, April 2, 2001. The article is available on-
line here: http://online.wsj.com/article/
SB10001424052748703712504576237042432212406.html.
    \2\ Thomas Joscelyn, ``Ex-Gitmo detainee training Libyan rebels in 
Derna,'' The Long War Journal, April 2, 2011. The article is available 
on-line here: http://www.longwarjournal.org/archives/2011/04/ex-
gitmo_detainee_tr.php.
    \3\ A copy of the declassified memos can be found on-line here: 
http://projects.nytimes.com/guantanamo/detainees/557-abu-sufian-
ibrahim-ahmed-hamuda-bin-qumu/documents/5/pages/480.
---------------------------------------------------------------------------
    As the United States and NATO move forward, extreme caution should 
be exercised when dealing with the Derna faction of the Libyan 
rebellion. Every effort should be made to minimize their role in 
shaping Libya's political future. And that is assuming the rebels can 
even overtake Col. Muammar Qaddafi, which is far from a certainty at 
this point.
    A wounded Qaddafi could easily turn to terrorism to punish those 
who opposed him, both at home and abroad. During the 1980s, Qaddafi was 
one of the world's foremost sponsors of terrorism. After the September 
11, 2001 terrorist attacks, some have looked upon Qaddafi as a partner 
against al-Qaeda because the LIFG targeted his regime. It is true that 
Qaddafi and al-Qaeda are not friends. But I would inject a note of 
caution here.
    In 2003, Qaddafi successfully hired al-Qaeda terrorists to kill 
Saudi Crown Prince Abdullah. Qaddafi and Abdullah had a televised 
shouting match concerning the war against Saddam Hussein's Iraq. During 
the course of that argument, Abdullah insulted Qaddafi, which the 
Libyan dictator did not take lightly. His intelligence operatives 
reached out to a contact living in the United States who successfully 
brokered a deal with al-Qaeda operatives living in the United Kingdom 
to kill Abdullah. Libyan intelligence officers and an al-Qaeda cell 
were caught in Saudi Arabia as they planned the operation.\4\
---------------------------------------------------------------------------
    \4\ Thomas Joscelyn, ``The Libyan Terrorist: Muammar Qaddafi,'' 
WeeklyStandard.com, February 24, 2011. http://www.weeklystandard.com/
blogs/libyan-terrorist-muammar-qaddafi_552474.html.
---------------------------------------------------------------------------
    This example is an important reminder that Qaddafi is willing and 
able to use terrorism to punish his perceived enemies. We should expect 
nothing less from a dictator who ordered the downing of Pan-Am 103 in 
1988.
                                 yemen
    Of all the countries currently in turmoil, al-Qaeda is strongest in 
Yemen. As Obama administration officials have rightly noted, al-Qaeda 
in the Arabian Peninsula (AQAP) is the most dangerous al-Qaeda 
affiliate outside of South Asia. The failed Christmas day 2009 
terrorist attack and a host of other plots have demonstrated the 
group's capability and intent.
    In order to counter AQAP's growing threat, America has partnered 
with Yemeni President Ali Abdullah Saleh, who came into power in 1978 
and has led a united Yemen since 1990. But President Saleh is an uneven 
and duplicitous partner in the fight against terrorism.
    On the one hand: Saleh's regime provides some valuable intelligence 
against al-Qaeda; provides cover for unpopular American airstrikes; and 
Yemeni government forces have fought against al-Qaeda operatives. On 
the other hand: Saleh refused to take action against Sheikh Abdul 
Majeed al Zindani after Zindani was designated an al-Qaeda supporter by 
the United States and United Nations in 2004; al-Qaeda operatives have 
repeatedly been let out of prison or ``escaped''; Saleh's government 
vocally supported the Iraqi insurgency and, at a minimum, looked the 
other way as Yemenis went off to fight American forces; and Saleh has 
allowed terrorist organizations such as Hamas to operate in the open.
    Thus, President Saleh is far from an ideal partner in the fight 
against terrorism. And in the nearly 10 years since the September 11 
terrorist attacks, al-Qaeda has grown only stronger in Saleh's Yemen, 
not weaker.
    Regardless, the U.S. Government has partnered with Saleh because it 
fears that his replacement may be even worse. This is, in part, 
understandable. Jihadist organizations, including al-Qaeda, have 
longstanding ties to Yemen's military establishment. For instance, 
General Ali Mohsen al Ahmar, who helped bring Saleh to power, backed 
Osama bin Laden for years and has been known to use jihadists in the 
fight against southern secessionists and Houthi rebels.\5\ If General 
al Ahmar, or someone like him, were to come to power, it is likely that 
the Yemeni government would be even less helpful. Similarly, if a 
member of Yemen's Islamist establishment were to assume Saleh's mantle, 
American interests would undoubtedly suffer in the near-term.
---------------------------------------------------------------------------
    \5\ See, for example: John F. Burns, ``Yemen Links to bin Laden 
Gnaw at F.B.I. in Cole Inquiry,'' The New York Times, November 26, 
2000.
---------------------------------------------------------------------------
    However, President Saleh's political power has always rested on his 
alliances with actors such as General al Ahmar and Sheikh Zindani, who 
is one of the heads of Yemen's Islah party, the main opposition party. 
As a matter of straightforward logic, Saleh could never be a true 
partner against such men, who have extensive terrorist ties, because 
they ensured his continued rule. Now that al Ahmar, Zindani, and other 
powerbrokers have repudiated Saleh, it remains to be seen what 
political capital Saleh has left. It may be the case that Saleh's days 
as Yemen's ruler are numbered in any event, in which case the U.S. 
Government will find itself scrambling for a new partner.
                                 egypt
    President Hosni Mubarak was a partner against al-Qaeda and 
affiliated organizations. And the Egyptian military, which continues to 
play a large role in defining Egypt's politics, has no interest in 
seeing jihadist organizations take over the country. However, American 
counterterrorism efforts will likely be complicated should the Muslim 
Brotherhood assume a greater share of political power.
    Muslim Brotherhood leaders openly advocate jihad, and have endorsed 
terrorist violence in Iraq and Afghanistan. Hamas, which was designated 
a terrorist organization in the mid-1990s, is a branch of the Muslim 
Brotherhood. The Brotherhood's founding father, Hassan al Banna, called 
on Muslims to embrace what he called the ``Art of Death.'' He believed 
that Muslims should love death more than they love life. It is no 
surprise, then, that we find Muslim Brotherhood leaders justifying 
suicide bombings to this day. And, of course, Hamas regularly employs 
suicide bombings as a weapon.
    Should the Egyptian military and Muslim Brotherhood enter some sort 
of power-sharing arrangement, it will undoubtedly complicate American 
counterterrorism efforts.
    I look forward to discussing all of these topics, and more, during 
the hearing.

    Mr. Meehan. Thank you, Mr. Joscelyn.
    I would like to turn now to Mr. Brian--is it ``Katulis''? 
Is that----
    Mr. Katulis. Yes, sir, ``Katulis.''
    Mr. Meehan. Thank you. Mr. Brian Katulis, a senior fellow 
for the Center for American Progress. Mr. Katulis is a senior 
fellow there, where he focuses on United States National 
security policy in the Middle East and South Asia. He served as 
a consultant to numerous U.S. Government agencies, private 
corporations, and nongovernmental organizations on projects in 
more than two dozen countries, including Iraq, Pakistan, 
Afghanistan, Yemen, Egypt, and Colombia.
    From 1995 to 1998, Mr. Katulis lived in the West Bank, the 
Gaza Strip, and Egypt and worked for the National Democratic 
Institute for International Affairs.
    Mr. Katulis received a master's degree from Princeton 
University's Woodrow Wilson School of Public and International 
Affairs and a B.A. in history in Arab Islamic studies from a 
little school in the 7th Congressional District in Pennsylvania 
called Villanova, which I would like to note is where I am. Mr. 
Katulis was a Fulbright scholar in Jordan, and he co-authored 
``The Prosperity Agenda,'' a book on U.S. National security.
    We are very grateful to have you here today, Mr. Katulis, 
and look forward to you summarizing your testimony.

STATEMENT OF BRIAN KATULIS, SENIOR FELLOW, CENTER FOR AMERICAN 
                            PROGRESS

    Mr. Katulis. Great. Thank you, Mr. Chairman.
    I want to thank you and all of the Members of the committee 
for taking the time for this hearing, because I think it is 
extremely important for you to do this today, but then to 
repeat it again and again, because 3 months into the uprisings 
in the Mideast, I see the U.S. Government slipping into a 
tactical crisis management emergency mode. I think it is 
important to use these hearings to take a step back 
periodically, assess the situation strategically, and not get 
caught up on each of the individual countries, which I think is 
what we are trying to do today.
    At the start of this year, I would say that the Middle East 
is in the beginning of a transition that I think will take 
years and perhaps the rest of this decade to unfold. I 
characterized the current uprisings as the start of a strategic 
shock akin to what we saw in the 1979 Islamic revolution in 
Iran, the 1991 Gulf War, and the start of the 2001 global war 
on terror.
    Each has had security implications for the Middle East on 
the whole, and they have had implications on the fight against 
terrorist networks. There are a lot of risks, which I will turn 
to.
    But the greatest opportunity, which I think there is strong 
unanimity here, is that these popular uprisings give us the 
chance to help move beyond the autocratic governments that have 
permitted terrorist threats to fester alongside endemic 
poverty, weak governance, and corruption.
    The opportunity here is what I sometimes call as moving 
beyond our addiction to dictators. For decades, we have been 
addicted to dictators, and it is like our addiction to foreign 
oil that a lot of people talk about. We know it is bad for us. 
We know we need to move beyond it. We simply haven't yet 
figured out how to move beyond it.
    I don't want to repeat what other witnesses have said 
today, but I think there are four leading terrorist challenges 
that we should focus on. People have talked about Yemen, and I 
think we need to continue to focus on this day to day, for all 
of the reasons that other witnesses have highlighted.
    I would also highlight the fact--the worrisome trend in 
Yemen for years now of senior figures in the current 
government, actually, having ties to the al-Qaeda movement. I 
will point to the May 2010 air strike last year that killed a 
number of AQAP fighters. It also killed a deputy governor of 
the Marib government, Jabir al-Shabwani.
    There are also worrisome links between some of the 
political parties, Islamist political parties, and terrorist 
movements in Yemen, and we need to, I think, discuss that and 
probe that more clearly.
    I think the second leading threat, which has been discussed 
already, are the threats posed by the Libyan civil war, which 
is on-going.
    The third I would highlight, which we haven't discussed, 
but I think is important for the United States and its allies, 
are the terrorist threats in states and territories bordering 
Israel. The prison breaks in Egypt and in Libya, I think, have 
some implications for our ally, Israel, and we are seeing signs 
already of possible renewed conflict along Israel's southern 
and northern borders driven by not only Hamas and Hezbollah, 
but also challenging Islamist groups, Salafi jihadist groups 
that are challenging groups like Hamas and Hezbollah and trying 
to push them towards more aggressive action.
    Finally, we should not forget about Iraq, which had been 
the focus for so many years. Just last week, al-Qaeda in Iraq 
claimed credit for a horrific attack in Tikrit, which killed 
nearly 60 people in the provincial council headquarters.
    I outline in my testimony integrated strategies for dealing 
with this threat and certain advantages, four key advantages. 
No. 1, al-Qaeda to date has been irrelevant in the popular 
uprisings and has been left behind. No. 2, there are sharp 
divisions between and within the radical and violent Islamist 
terrorist groups, and we can discuss that. No. 3, Islamist 
political organizations and political parties in particular 
that play by the rules of the road could further marginalize 
these extremist fringes. The fourth strategic advantage I think 
we have in this fight is that key countries, including Jordan, 
Saudi Arabia, the emirates and many gulf countries, are in this 
fight with us today.
    In conclusion--and I think we have a tough policy challenge 
ahead. Based on my own experience, living and working in the 
Middle East for more than 5 years in the 1990s, one of the key 
challenges is having an integrated approach, marrying our 
military-to-military and intelligence-to-intelligence 
partnerships with efforts to increase better governance, 
democratic oversight, and a range of issues that fight 
corruption in these societies.
    Having that integrated approach requires full funding of 
organizations like the State Department and USAID. We can't 
move into this fight without them being fully equipped.
    Then, second, I think we need to actually learn to live 
with political Islam. They will become an increasing voice in 
societies that open up. There is a variety and diversity of 
views among these groups, and we need to learn to deal with 
those that abide by the rules of the democratic game and are 
nonviolent.
    I will close my testimony here, and I look forward to your 
questions. Thank you.
    [The statement of Mr. Katulis follows:]
                  Prepared Statement of Brian Katulis
    Mr. Chairman and Members of the subcommittee: More than 3 months 
into the Middle East uprisings, the United States faces dangerous 
threats on a daily basis from that region of the world. Fast-moving 
events in the Middle East risk pulling our country deeper into the 
tactical, reactive, and crisis management mode that has frequently 
characterized U.S. foreign policymaking in the Middle East for decades.
    That is why it is important to take opportunities like today's 
hearing to step back from the daily events and assess the security 
implications of the recent changes in the Middle East.
    At the start of this year, the Middle East entered a transition 
period that will likely take years to unfold. There may not be full 
clarity about the full implications of the changes underway until the 
latter part of this decade. The changes underway represent the fourth 
major strategic shock to the Middle East experienced at a regional 
level since 1979--the 1979 Islamic revolution in Iran, the 1991 Gulf 
War, and the 2001 start of the global war on terrorism. Each had their 
own ripple effects on the region. But the current uprisings and battles 
underway could do more to change the daily lives of people in the 
region for the better than those previous events.
    A major regional transformation appears inevitable given the 
overwhelming economic, political, and social problems many countries in 
the region face. The United States has a choice: Attempt to preserve an 
unsustainable status quo that started crumbling years ago, or use its 
considerable powers to shape outcomes in ways that make Americans safer 
while increasing security and prosperity for the people of the Middle 
East.
    The risks in this transition are considerable--civil wars, 
prolonged insurgencies, and new regional wars could open the space for 
terrorist networks to operate more freely. In addition, all of the 
problems that existed before these uprisings--Iran's nuclear program 
and support for terrorism, the unresolved Arab-Israeli conflict, and 
Iraq's reintegration into the region--remain major challenges and more 
complicated in light of recent events in the region.
    But the opportunities in this transition are also great--the 
greatest opportunity presented by the popular uprisings is to help key 
countries transition from the autocratic governments that permitted 
terrorist threats to fester alongside endemic poverty, weak governance, 
and corruption towards a more democratic system. The pathway ahead in 
the coming months and years is fraught with considerable risks that 
should not be downplayed, but standing by the autocratic regimes is no 
longer a viable option in many parts of the Middle East.
 leading terrorist threats at the start of the middle east's transition
    The top threat that the United States faces as a result of the 
uprisings and turmoil is the possibility that various terrorist 
networks could exploit the political unrest to sow wider chaos in the 
region or to plot new terror attacks against the United States or other 
U.S. allies. If regional intelligence and law enforcement agencies are 
distracted or weakened by internal political fights, this could present 
an operational opportunity for terrorist networks.
    The United States needs to keep focused on four key fronts in the 
coming weeks:
    1. Unrest in Yemen.--Prior to the Middle East uprisings, the threat 
posed to the United States by al-Qaeda in the Arabian Peninsula, or 
AQAP, surpassed threats from al-Qaeda affiliates operating in Pakistan 
and Afghanistan. The on-going political instability in Yemen over the 
past several months has diverted the Yemeni security establishment's 
attention and resources away from the efforts to deal with AQAP. 
Following the attempted bombing of a U.S. plane in Detroit in December 
2009, the United States more than doubled its military assistance to 
Yemen in an effort to help government security agencies to deal with 
the increased threats.
    At the time of this prepared written testimony, events in Yemen are 
very fluid, with a great deal of uncertainty about the likely outcome 
of a possible leadership transition in the Yemeni government. The 
central challenge facing U.S. policymakers is maintaining and building 
counterterrorism and security cooperation with officials in key Yemeni 
security agencies while assisting in quiet efforts to help Yemen 
develop a roadmap for political and economic reforms that respond to 
the people's concerns.
    2. Libya's civil war.--A protracted internal conflict in Libya 
presents two possible distinct threats to U.S. National security. The 
risk that the Qaddafi regime may remain in power and return to global 
terrorist attacks as it has in previous decades, and risks associated 
with supporting rebel groups that contain terrorist elements. In 
previous Middle East civil wars--Iraq last decade, Algeria in the 
1990s, and Lebanon in the 1980s--terrorist networks contributed to 
prolonged instability that led to the deaths of more than 100,000 
people in each of these conflicts. On balance, the violence associated 
with these terrorist groups in these past conflicts was focused on 
internal battles with these countries, but the instability presented an 
opportunity for terror networks to build their operational and 
ideological capacities.
    3. Terrorist threats in States and territories bordering Israel.--
In the Gaza Strip and Lebanon during the past few weeks, there have 
been increased signals that terrorist groups such as the Palestinian 
Hamas, the Lebanese Hezbollah, and more radical Islamist groups may be 
preparing for another conflict with Israel. Iran appears to continue 
its effort to ship weapons and offer financial support to terrorist 
organizations operating along Israel's border.
    In addition, recent prison breaks in Egypt and Libya during the 
unrest in both countries present an additional terrorism risk--
estimates of the number of terrorist suspects who escaped during the 
unrest in both countries range from several hundred to several 
thousand. Sami Chehab, a member of the Lebanese Hezbollah who escaped 
from an Egyptian prison, is reportedly back in Lebanon--Chehab had been 
arrested on suspicions that he was helping supply weapons to militants 
in the Gaza Strip. In February, Ayman Nofal, a senior Hamas commander, 
escaped from an Egyptian jail and made his way back to the Gaza Strip. 
These high-profile escapes may be just the tip of the iceberg of a 
larger number of terrorist suspects who are no longer in detention and 
may seek to upset a fragile security situation in the region.
    4. On-going terrorist threats linked to the turmoil in Iraq.--
Although Iraq has faded from U.S. policy and political debates, the on-
going violence in Iraq as U.S. troops continue to withdraw from the 
country represents a fourth threat. Al-Qaeda in Iraq, or AQI, claimed 
responsibility for last week's raid and hostage situation that killed 
nearly 60 people in the provincial council headquarters in Tikrit--and 
this was just the latest in a series of high-profile targeted attacks 
by AQI. In addition to the threats AQI poses to stability in Iraq, the 
continued threat posed by foreign terrorists who fought in Iraq and 
returned to their home countries remains a major challenge for 
countries such as Saudi Arabia, Yemen, and Libya.
developing integrated u.s. strategies to deal with terrorist threats at 
                     a time of change in the region
    Executing political and economic reforms in this combustible 
regional security environment will be no easy task.
    The current situation presents four main advantages that will make 
the tasks of dealing with these terrorist threats outlined above while 
marginalizing radical Islamist groups and advancing pragmatic political 
reforms manageable yet still difficult:
    1. Al-Qaeda's irrelevance in uprisings.--For nearly the past 20 
years, al-Qaeda, or AQ, has tried to build its ideological platform on 
two core pillars--tapping into popular discontent with the region's 
autocratic and corrupt governments and fomenting anti-American and 
anti-Western attitudes. The fact that AQ and its affiliates had 
virtually nothing to do with the removal of leaders in places like 
Egypt and Tunisia and the widespread calls for political reform has 
further weakened its credibility.
    Looking ahead, it seems that AQ's popular appeal will remain low 
given that most of the protesters in key countries support democratic 
political reforms, something that AQ leadership opposes. The most 
radical Islamists view democracy as anathema to their agenda, yet the 
people of the region widely support democratic political reforms 
according to public opinion polls. If al-Qaeda continues to be opposed 
to democracy and uses violence to oppose democratic change, they will 
likely further marginalize themselves and be viewed as a threat to 
newly democratic states in the Middle East as much as they are in the 
United States.
    2. Sharp divisions within radical and violent Islamist terrorist 
groups.--The leading Islamist extremist groups lack a common strategy 
and remain sharply at odds with one another over matters of strategy, 
tactics, and operations. Although al-Qaeda central and its affiliates 
such as al-Qaeda in the Arabian Peninsula and al-Qaeda in the Islamic 
Maghreb have worked to enhance their coordination, the movements lack a 
common military and political agenda and are facing challenges from 
fringe Salafist groups.
    3. Islamist political organizations like the Muslim Brotherhood 
could further marginalize extremist fringes.--The third opportunity 
presented by the political openings in key countries of the Middle East 
is that democratic reforms could further lead to internal debates 
within more mainstream Islamist groups like the Muslim Brotherhood that 
contribute to further marginalizing fringe Islamist groups. Although 
the Muslim Brotherhood and groups like al-Qaeda share a common 
intellectual and political lineage, the ties between the different 
strands of today's Islamists groups have frayed considerably and they 
disagree on core foundational principles. For example, Ayman Al-
Zawahiri, AQ's second in command, wrote a book attacking the Muslim 
Brotherhood for its willingness to participate in democratic politics.
    4. Strategic security and counterterrorism cooperation continues 
with key partners in the region and will likely continue in the coming 
years.--Despite the additional threats presented by the distractions 
and diversion of resources away from counterterrorism efforts in 
certain places like Yemen and Egypt, the United States still maintains 
strong coordination and partnerships with key countries in the region 
and it continues to work with leaders in the security establishments of 
most Middle East countries. In particular, bilateral security and 
counterterrorism cooperation between the United States and Jordan, 
Saudi Arabia, the Emirates, and most countries of the Gulf region 
remains strong. For decades, the United States has invested resources 
and efforts at enhancing coordination, and democratic political 
openings won't lead to quick and fast erosions of cooperation with most 
countries.
    Even as key countries open up to political reforms in the coming 
years, it will likely remain in the strategic self-interest of the 
countries and people of the region to protect themselves from violent 
extremism and terrorism. Countries such as Egypt, Saudi Arabia, Iraq, 
and Yemen share a common interest with the United States and other 
global powers to make sure that radical nonstate actors don't further 
undermine stability in their countries and weaken an already fragile 
regional security environment.
    Weighing these advantages against the risks, the United States 
should seek to adapt a new regional security approach that encourages 
pragmatic political and economic reforms while working to maintain 
security cooperation with existing institutions. In managing its 
interests in what is likely to be an extended period of transition, the 
United States will need to tailor its approaches to the unique 
circumstances of each country and our own security interests involved. 
Egypt and Tunisia have not been models for how we deal with Yemen or 
Bahrain, nor should they be. Each country has different internal 
dynamics and features, and our security interests vary from country to 
country. Here are two common principles and approaches that could be 
applied across the region and tailored to the circumstances of each 
country:
    1. Work for political and economic reform within existing 
institutional frameworks.--The leaders and people of the region are the 
ones who need to shape the reform agendas--and the United States should 
prepare to adapt the way it has done business in the region for 
decades. The transition in most Middle East countries will likely be 
gradual, and so will the changes in U.S. policy. The United States 
should leverage its existing relationships--particularly the military-
to-military contacts and the strong ties it has with key countries in 
addressing common security challenges like terrorism--to support 
efforts to reform in systems so they can address the long list of 
problems.
    For decades, the United States has made substantial investments in 
security sector reform and support in a range of Middle Eastern 
countries--Iraq is just one example. It also has had long-standing 
programs of security sector support throughout the region, working to 
build the capacity of military and intelligence agencies throughout the 
Middle East. The challenge now facing the United States is adapting 
this decades-long policy approach in the face of future democratic 
openings. Instead of attempts at wholesale replacement of institutions 
like we saw in Iraq in 2003 with the disbanding of the military, the 
United States should develop policies that work to connect security 
systems to executive, judicial, and legislative authorities that can 
provide oversight and accountability.
    By adopting an integrated approach, the United States could help 
countries establish stronger foundations for better governance and 
anticorruption through governing. Security sector reform can promote 
better practices within governing systems--including fair and balanced 
oversight from democratic legislative branches and better working 
relationships with judicial authorities. This requires developing 
incentives to advance reform in implementing the rule of law. This will 
also require making investments in other types of U.S. power--
diplomatic, development, and economic efforts--in order to have a more 
integrated approach that avoids the ``stovepiping''--U.S. agencies not 
coordinating efforts with other U.S. agencies. In essence, the United 
States will need to develop a more comprehensive and integrated 
approach that links efforts by our military and intelligence agencies 
with efforts by the State Department and USAID.
    2. Prepare for the role of political Islam to increase in the 
Middle East.--Second, the United States will need to learn to live and 
deal with political Islam, which is likely to see its influence grow as 
societies open up to reform. The recent U.S. experience in Iraq 
demonstrates that the United States can learn to work closely with a 
range of Islamist political groups to enhance stability and advance 
U.S. strategic interests. The leading political parties in the current 
Iraqi government are Islamist. During the civil war in Iraq, the U.S. 
military and intelligence agencies exploited cleavages among Islamist 
groups and used these divisions to reduce the threat of groups like AQI 
and make them marginal and tactical threats, as opposed to strategic 
threats.
    Similarly, in other parts of the Middle East already experiencing 
reforms like Egypt or other countries likely to experience political 
change such as Jordan, Islamist parties and forces have become better 
organized and garnered stronger popular support. The United States 
should develop two bright red lines when it comes to offering support 
to a country in which Islamist political parties and forces play a role 
in the government. First, it should seek guarantees that Islamist 
movements would respect a broad range of universal democratic values as 
outlined in the U.N. Declaration of Human Rights. The notion that 
Islamism and democracy are fundamentally incompatible is outdated and 
needs to be tested as does the idea that Islamism represents an 
ideological challenge akin to that of communism during the Cold War. 
Seeking to isolate Islamist political parties before they have had a 
chance to prove themselves in political systems that are opening would 
be counterproductive.
    Second, the U.S. Government should maintain its policy of not 
working with Islamist groups currently on its foreign terrorist 
organization list. It must continue to make a distinction between those 
groups that have explicitly renounced violence and groups that have 
not. For those that have not renounced violence, it should press 
regional allies and other interlocutors to encourage those movements 
that espouse violence as a means for bringing about political change to 
update their views to reflect universal principles of respecting human 
rights and supporting nonviolent means.
                               conclusion
    The popular uprisings of the Middle East have brought the region 
across a new threshold, and the changes underway will likely take years 
to unfold. The unrest has presented the United States with some new and 
pressing terrorist threats but the old way of doing business in the 
Middle East is no longer sustainable. America's security need not come 
at the cost of supporting dictatorships and authoritarian governments 
that are corrupt and do not respect the rights of their people. The 
United States can enhance counterterrorism cooperation in the long run 
if it works with a wider range of institutions and accepts the reality 
that Islamist political groups could be among the most important allies 
in marginalizing and defeating Islamist extremists and terrorist 
groups.

    Mr. Meehan. Thank you, Mr. Katulis.
    Since we began, I am very pleased--Mr. Mudd, thank you for 
taking the time to make it out to us today. We are very pleased 
to have you here today.
    Mr. Mudd is a senior research fellow at the New America 
Foundation. Mr. Mudd joined the Central Intelligence Agency in 
1985 as an analyst specializing in South Asia and then the 
Middle East. He began working at the CIA counterterrorism 
center in 1992 and served on the National Intelligence Council 
and as the deputy national intelligence officer for the Near 
East and South Asia. In 2001, Mr. Mudd served as director of 
gulf affairs on the White House National Security Council.
    After 9/11, he served in Afghanistan and became deputy 
director of the CTC from 2003 to 2005. In 2005, Mr. Mudd was 
appointed to serve as the first-ever deputy director of the FBI 
National Security Branch. Mr. Mudd resigned from Government 
service in 2010. He is the recipient of numerous CIA awards and 
commendations, including the Director's Award. Mr. Mudd also 
graduated from a place in the 7th Congressional District--there 
must be some kind of pattern here--called Villanova University, 
with a B.A. in English literature and an M.A. in English 
literature from the University of Virginia.
    So, Mr. Mudd, you are now recognized to summarize your 
testimony for 5 minutes.

 STATEMENT OF PHILIP MUDD, SENIOR RESEARCH FELLOW, NEW AMERICA 
                           FOUNDATION

    Mr. Mudd. Thank you for having me, and thanks for being 
patient for me getting here. The traffic out there--I wish this 
were the Transportation Subcommittee--is horrible.
    A couple of thoughts. You can read the testimony if you 
would like, but I will give you some thoughts that are maybe in 
addition to it.
    I remember when I was deputy director of the 
counterterrorism program at CIA when we still had our own 
facilities and were questioning people like Khalid Sheikh 
Mohammed and talking to the interrogators, as I often did. They 
talked about people like Khalid Sheikh Mohammed. He is not a 
terrorist. That is too small. He is a revolutionary. These guys 
were committed and smart and far longer in vision than many of 
us Americans are. They looked at the world in terms of decades 
and centuries and never anticipated that the revolution they 
started would end in their lifetimes.
    So as we assess this, I think we have to look at it with a 
long view, because these guys are persistent and they will be 
around for a while. I don't think their view right now is 
terribly positive. I have seen what the North African militants 
have said about what is happening in Libya. I have seen what 
al-Qaeda in the Arabian Peninsula has said out of Yemen. They 
are supportive of these revolutions publicly. I think they 
suffered a significant setback, not just to terrorism, but to 
the revolution.
    Let me tell you why, and let me close with a few thoughts 
on things that I would be thinking about if I were in your hot 
seat.
    When al-Qaeda set out on September 11 to stoke the 
revolution, they intended not just to do everything themselves, 
they intended to get other people to act as they acted. We 
started to see that after 9/11. Affiliated groups in places 
like Indonesia started to attack Western targets in ways that 
they had never attacked these targets in the past.
    The Indonesian militants had been around for decades. They 
had local targets earlier. They wanted to oust the local 
government in Jakarta. Al-Qaeda convinced them that the real 
problem was the head of the snake. So as al-Qaeda succeeded in 
9/11, after 9/11, affiliated groups started to succeed.
    Then as I sat at the threat meetings for 4\1/2\ years with 
Director Mueller and three attorneys general, I saw the 
movement shifting to this country, and it shifted not 
necessarily with al-Qaeda core, although we had that problem 
there, or with affiliated movements. It also shifted with like-
minded kids, New York, Dallas. We had them here.
    So in a way, the revolution was metastasizing, but it 
suffered a few setbacks, two in particular. One is they killed 
too many innocents. If you look at polling data out of the 
Middle East, it is mixed over the past years. Pew does it; 
Gallup does it. But polling data shows you that all these 
countries that had people who might have said, ``Hooray for al-
Qaeda,'' on September 12, 9\1/2\ years ago started to say, 
``No,'' not because they love us, but because al-Qaeda made the 
same mistake militants made in Algeria and Egypt in the 1990s. 
They killed too many innocents, Saudi Arabia, Iraq, Jordan. We 
can go on and on.
    So the first setback they have suffered--and they are still 
reeling from this; I don't believe they will ever recover from 
it--is they lost recruiting pools and financiers because they 
killed too many innocents.
    The second thing they have lost in the last 3 months is the 
opportunity to tell recruits that they can be recruited to go 
back into a place like Egypt and oppose a corrupt regime. 
Pretty tough to do that now, except--and this is significant--
in the gulf sheikdoms. I wonder--this is a bit of an aside--
whether the gulf sheikdoms are going to face more focus from 
al-Qaeda, because they are not going to focus obviously on 
Tunisia, Egypt, hopefully not on Libya soon.
    But they also faced the potential rise in political 
groups--Islamists, the Muslim Brotherhood--whom they despise. I 
know there is a lot of commentary about the Muslim Brotherhood 
in this country. If you look at the statements between--
publicly between al-Qaeda leadership and the Muslim 
Brotherhood, they hate each other.
    So al-Qaeda is sitting here saying, ``We love this. We have 
got to be with the people.'' I don't think they have much 
option but to say it. What are you supposed to say, if you are 
trying to recruit a Libyan kid today?
    But I think the dynamic of the loss of popular support 
between the killing of innocents and the loss of the prospect 
of having and influencing these governments, they are sitting 
back saying, ``I don't like this so much.''
    A couple of things to worry about. These countries have 
endemic economic problems, and too many people out there in 
these countries are too optimistic about the prospect that 
political reform automatically means jobs. I think that is--
short term, I think we will be okay on terrorism. Yemen is a 
significant problem; we ought to come back to that. But North 
Africa I think will be okay, because kids now potentially have 
a voice and al-Qaeda doesn't.
    Mid-term--I am talking 2, 3, 5 years--I am worried some of 
these kids are going to say, ``Shoot, this democracy thing 
didn't work out so well, either.''
    So to close, in your seat, we have got to think about aid 
and we have got to think about support for U.S. industry. They 
are going to be asking for free trade agreements in an 
agreement that is going to make us politically comfortable, 
because guaranteed these governments with an Islamist influence 
are going to come out saying things like, ``We don't like 
Israel.''
    So you are going to have a choice. The choice is to say, do 
we look long-term and understand the political processes lead 
to--people we don't like? Because we have got to create 
economic environments where these kids don't become a 
recruiting pool again.
    We have made terrific progress in the last 10 years. This 
organization, this revolutionary movement is slowly dying out 
in a way when I was deputy director of counterterrorism I 
didn't think was happening. It is today. Let's not lose it.
    [The statement of Mr. Mudd follows:]
                   Prepared Statement of Philip Mudd
                              6 April 2011
    The threat from North Africa and the broader Middle East has 
evolved profoundly during the past 20 years, with multiple stages of 
violence over decades that illustrate how susceptible this region has 
been to unrest and the call of violent jihadists, including al-Qaeda. 
The series of events include:
  <bullet> The concentration of North African extremists who went to 
        Afghanistan in the 1980s to fight the Soviets, and then the 
        Soviet-backed Afghan regime, and who absorbed al-Qaeda ideology 
        during their time there;
  <bullet> The return of these extremists to fuel anti-government 
        violence, particularly in Algeria and Egypt, during the 19909s, 
        with a parallel rise in networks that attacked in Western 
        Europe, particularly France;
  <bullet> The migration of extremists from North Africa to Iraq, where 
        jihadists of North African origin were overrepresented among 
        foreign fighters;
  <bullet> The shift of local North African groups from local 
        motivations and linkages to affiliation with al-Qaeda, and its 
        focus on Western targets, during the past decade; and
  <bullet> The prospect that the extremists who come from this highly 
        violent history will find a way to use the more recent unrest 
        as a springboard to regain momentum they have lost during the 
        past few years.
    With this backdrop, there is no disputing that North Africa has 
been one of the hotbeds of violent jihad, but experts differ over 
whether the recent unrest will offer jihadists an opportunity or a 
setback. In general, I would judge that these developments are a net 
negative for al-Qaeda and other jihadists who view the United States 
and its allies as legitimate targets for attack. To start, some of the 
key justifications for recruits to turn to an al-Qaedist message have 
disappeared: Leaders viewed as un-Islamic and corrupt are gone, and 
Islamists will have some sway within new governments. Youth who 
previously looked at bleak prospects and unresponsive regimes might see 
a reason to participate in this new change, and violent extremists 
would have little sympathy now in attacks that local populations would 
see as an assault on their revolutions.
    Al-Qaeda and its affiliates have come out publicly in support of 
these rebellious populations, but there is little doubt that they are 
uncomfortable with these changes. First, they have a history of well-
documented animosity toward the Muslim Brotherhood and its offshoots, 
such as Hamas, and the Brotherhood most likely will have significant 
influence in elections and new governments. Second, al-Qaeda is no fan 
of democracy. The statements of support are simply signs that the 
leadership of the last few decades of violent jihad cannot be seen as 
opposing what are so clearly popular revolutions. So they will pretend 
to ally with the will of the people, and bide their time.
    This is not to say that violence will subside. The disarray among 
security services might provide an opening for a spike in criminal 
activity. And the history of elections in the Middle East--Algeria, 
Iraq, and Lebanon--is rife with examples of political parties defined 
by religion and ethnicity. Similar fissures in the new, hopeful 
democracies may lead to the same, almost guaranteeing political 
violence.
    Over the longer term, economics will help decide whether these 
countries provide opportunities resulting in growth and job creation 
that might mitigate the threat of restive youth. For now, the picture 
is not good: Investment will slow with the unrest, and this slowdown 
might accelerate if foreign investors shy away longer term as a result 
of the uncertain climate. In general, these countries have high youth 
unemployment, low GDP growth rates, and large percentages of their 
populations under the age of 15. These youth probably see democracy as 
a rapid route to economic reform, and they may have mistaken 
expectations that new governments can quickly spark economic growth. If 
they are disappointed--and particularly if new governments are seen as 
corrupt--they may again be vulnerable to calls from extremists who will 
target the United States.
    Western actions might influence whether these violent extremists 
can ever take advantage of what emerges from these revolutions. New 
governments will see continuation of foreign aid as a sign that the 
United States respects the will of voters, even as it questions the 
ultimate aims of some Islamists. Meanwhile, in their push for rapid job 
creation, new governments will look for trade benefits from Washington, 
again as a way to placate populations who see democracy as a panacea 
for profound economic problems.
    We may well witness statements from some of these Islamists--during 
an Egyptian electoral process--that make us uncomfortable, such as 
questions about peace agreements with Israel. The emerging local, non-
al-Qaeda Islamists are unlikely, however, to contribute to the jihadist 
threat to the United States, at least in the short term. They are going 
to have to deliver at home, and quickly, on the expectations of youth. 
They abhor al-Qaeda, and they will not countenance al-Qaeda statements 
of support. And, as is the case with many parties when they take power, 
they will immediately face practical questions--such as ensuring that 
they can attract foreign investment--that prod them toward pragmatism.
    Unrest in the Gulf has different dimensions. The Gulf leaders have 
more legitimacy than the presidents-for-life in countries such as 
Syria, Yemen, Egypt, Tunisia, and Libya, and they have economic 
advantages as well. They are not immune to the wave of unrest--Bahrain 
is the prime example, but Morocco, Oman, and others have also witnessed 
protests--but these protests often call for reform, not revolution.
    This is not to say that this year's picture is the same as next 
year's. These countries too have an unusually high percentage of 
teenagers, and these youth, like their counterparts elsewhere, are not 
finding jobs they think are suitable to their degrees. Over time, job 
creation, foreign investment, and diversification may be as important 
in the Gulf as in the countries that have already gone through revolts. 
For now, though, the characterization of an ``Arab Spring'' across the 
Middle East is misleading: This unrest is far more focused on autocrats 
than on monarchs. In addition to providing opportunities, some of the 
future will hinge as well on how governments react to violence: The 
Moroccan king's subtle approach has worked well, but in other areas, 
the quick resort to force by security services has alienated 
protesters. If there are more protests, one key indicator of their 
longevity will be not only the legitimacy of their demands but the 
question of whether the Moroccan approach becomes the norm.
    Our time horizons are shorter than those of al-Qaeda and its 
affiliates. They think of time in terms of decades and centuries, while 
we tend to look at weeks, months, or a few years as significant. Our 
annual threat assessments in this country during the past decade, for 
example, have at times characterized al-Qaeda as resurgent or on the 
ropes, rapid turnarounds in assessment that mask how the group views 
itself. A few years' pressure is not a lifetime, and the jihadists we 
face are both smart and resilient. So while we watch the emergence of 
new democracies, and inevitably turn our attention elsewhere--a new 
nuclear crisis, humanitarian disasters, debates on immigration, health 
care reform--we can bet that our adversaries are waiting to see if they 
can seize an advantage.
    If we are to match the patience of jihadists, then, our reaction to 
this upheaval in the Middle East will require patience, and the art of 
the long view: Supporting nascent democracies but then recoiling when 
elections result in political posturing that makes us uncomfortable 
will risk losing an opportunity with the new democrats. And withdrawing 
economic support might accelerate a decline that will persuade possible 
jihadists to lose hope. As it stands, al-Qaeda is off-guard: So far, so 
good. But ``so far'' is just a few months at most: Years of engagement, 
patience, and a willingness to understand that our form of democracy is 
not universally viewed as successful will help us ensure that, years 
from now, we still see these revolutions as having a positive effect on 
mitigating threat to the U.S. homeland.

    Mr. Meehan. Thank you, Mr. Mudd.
    Thank you to each of the Members of the panel for your 
testimony. So at this moment, I will recognize myself for 5 
minutes of questioning.
    I am sort of encouraged by the approach that each of you 
has taken and the recognition that we need to monitor this in 
the immediate, but look simultaneously in the long term.
    But one of the challenges that we have--particularly 
sitting on a committee like this--that this isn't foreign 
affairs. This is in intelligence. We are looking at the impacts 
on our homeland.
    One of the concerns that I think we all share is trying to 
interpret this changing environment, not just in one place, but 
in multiple locations, and then try to project back how it will 
have an impact on us.
    Mr. Mudd, you know, in your written testimony, you--in your 
comment right now--you talked about al-Qaeda is off-guard. You 
know, it is not doing so good. That was sort of an encouraging 
observation. But we also know that al-Qaeda likes to--in the 
words of one of the panelists--it will navigate to areas where 
there is a vacuum.
    So we know there are vacuums in many of these locations. My 
question for you is, as we are looking at the long-term 
picture, we simultaneously have to deal with--you know, the 
increasing threat to our security. May we may be concerned--and 
what ought we be watching for as these events change to see if 
we are doing the right things to protect ourselves from acts of 
terrorism?
    Mr. Mudd. I think there are a couple things that I would 
look at if I were you. I can tell you, I will be looking at 
myself, and a lot of these you can find in the open source. The 
first is what the popular attitudes are towards the new 
governments in these countries and whether people believe they 
are being given jobs, which I think is the bottom line here. 
Some 23-year-old with three kids who has got a college degree 
and no job, that is a problem.
    The second is their perceptions of us. As you know, they 
view us now--or they viewed us in the past as the head of the 
snake. You have got kids from the--from the LIFG, the Libyan 
group now, saying, well, maybe these guys aren't so bad, 
because they went and bombed Gadhafi. I think that is a short-
term issue if they don't see us as continuing to invest, 
assuming they take over Tripoli. So it is attitudes toward 
their own governments, economic performance, in light of huge 
population change.
    Mubarak comes in 30 years ago. In 1980, Egypt had 42 
million--roughly 42 million citizens. In 2000, 30 years later, 
85 million. A lot of people earn less than $2 a day.
    So we can talk about al-Qaeda ideology, but a lot of what 
my friends in the security business say is, increasingly kids 
who are joining these movements aren't ideologues. They are 
angry kids who don't feel like they have an opportunity.
    So economic performance is--a couple minor things, not 
minor, but more tactical. You look at problems that I saw when 
I was at CIA in terms of al-Qaeda and its affiliates can 
operate in, you have got two characteristics. One is safe 
haven, that is, places governments can't go, and one--and the 
second is where you have some Islamist influence, Sahel, Horn 
of Africa, in the past, you had places maybe like southern 
Indonesia, southern Philippines. Yemen has that prospect with a 
group that has shown itself willing and capable of reaching the 
United States.
    So I think that is the most intriguing place to watch. I am 
not sure al-Qaeda will do well there, for reasons we can talk 
about--I won't go on too long.
    The final thing I would watch out for is remembering that 
Europe is visa waiver territory. The European countries have a 
much greater presence of people from--emigrants from the 
countries that we are concerned about in North Africa, in 
particular, I am talking about partly Libya, but also Tunisia, 
if you go into Italy, Morocco, and Algeria, if you go into 
France.
    If we go ugly, over the course of the next 1, 2, 3 years in 
North Africa, I would be concerned in working with my European 
security services to say, is anybody going to catch a flight 
from Paris to the United States, a Moroccan or Algerian, 
because he is ticked off about what the United States just did 
in Algiers?
    Mr. Meehan. Thank you.
    Mr. Nelson, in your testimony, you had talked a little bit 
about al-Qaeda being a marginal movement, sort of similar to 
what Mr. Mudd said right now, but in some ways, might that 
inability to affect things directly within their own country 
make them in some ways a greater threat to us in the form of 
their desire to find a way to be relevant by acting out and 
carrying out acts against the United States and its interests?
    Mr. Nelson. Thank you, Chairman, for the question. 
Absolutely. Again, and that is where they thrive. Al-Qaeda 
thrives in the margins. They thrive, as Phil said, in these 
safe havens. I think this is the chaos which they are going to 
try to exploit.
    One of the many things that are problematic with safe 
havens is the idea of training, as well. Phil mentioned the 
visa waiver countries. One of the reasons that al-Qaeda has not 
been successful in its affiliates in attacking the United 
States have been, you know, tactical ineptitude, the inability 
to execute operations effectively.
    With a safe haven where they can get training and conduct 
operations and become more tactically proficient, we could see 
a greater threat in the United States, with more successful 
attacks, if those training grounds are allowed to manifest in 
these countries.
    Mr. Mudd. If I could correct the record, I didn't say 
marginal. I said they are hurt. I think these guys are still--I 
believe--and if I had to bet in Vegas, I would say there will 
be an attack in this country. I don't think it will be al-
Qaeda; I think it will be some kid inspired by al-Qaeda. But 
they are not down. They are just hurt.
    Mr. Meehan. Well, thank you for that clarification.
    Let me just--before I move to Ms. Speier, I would like to 
ask unanimous consent that the gentlelady from Texas, Ms. 
Jackson Lee, a Member of the full committee, we are very 
pleased that she has joined us today and that she be allowed to 
sit in the dais for the purpose of this hearing. Without 
objection, so ordered.
    Thank you, Ms. Lee. Ms. Jackson Lee, I appreciate your 
being here.
    At this point, let me turn it over to Ms. Speier for her 
questions.
    Ms. Speier. Thank you, Mr. Chairman.
    Stunning testimony from all of you. I am trying to 
synthesize it all, so I am going to ask a series of short 
questions and ask you each to confirm or deny what I have heard 
from you.
    I think it was Mr. Katulis who referenced that al-Qaeda is 
really irrelevant at this point. Is that a fair comment about 
something----
    Mr. Katulis. Yes, I would say ideologically they are 
irrelevant, they are on the ropes, yes.
    Ms. Speier. Okay. Is that something that is agreed to by 
all of you?
    Mr. Mudd. No.
    Ms. Speier. Okay.
    Mr. Joscelyn.
    Mr. Joscelyn. No, although I understand where Mr. Katulis 
is coming from, and I agree that they are not the prime mover 
behind the revolutions. They are not the prime actor that 
started this off. However, they are relevant. They do have 
cards to play in this, and that is what I am concerned about.
    Ms. Speier. Mr. Nelson.
    Mr. Nelson. That is correct. The al-Qaeda ideology is still 
very toxic and still very much a threat.
    Ms. Speier. The reference made to--excuse me--living with 
political Islam was kind of a startling thought that I hadn't 
really considered before. I think that was you, Mr. Mudd, who 
made that statement?
    Mr. Katulis. It was me.
    Ms. Speier. That was you, Mr. Katulis, okay. How do the 
rest of you feel about that?
    Mr. Mudd. I would just say sort of. We are going into 
elections. If you look at polling data again--and I try to draw 
as much as I can from facts as opposed to supposition--in many 
of these countries, polling data will tell you that more than 
90 percent of the population supports a significant role of 
religion in government.
    So my point would be not just that we have to handle 
political Islam--I think that is right--we have to handle who 
people elect. In the Gaza Strip, they are going to elect Hamas. 
We didn't like that too much. Now expand that to Libya, 
Tunisia, Egypt, and elsewhere. They are going to elect people 
we don't like.
    Ms. Speier. Mr. Joscelyn.
    Mr. Joscelyn. Yes, I would say that that is--political 
Islam encompasses a number of different belief systems within 
it. I would say that there--if you are talking about the hard-
line Islamists who, you know, have an extremist ideology, then 
I would say, we should be very uncomfortable in some of these 
areas if political Islam comes to rule.
    There are, you know, differences from country to country. 
It gets very complicated, unfortunately. But I will give you 
one quick example.
    The Obama administration's ambassador to Yemen, Mr. 
Feierstein, recently said, you know, that one of the concerns 
that he had would be if somebody like Sheikh Zindani, Abd Majid 
Zindani, who is a very prominent sheikh in Yemen, were to come 
to power somehow through the process. He said, correctly I 
would say, that the Obama administration would have a problem 
with that. That is an area where that would be ``political 
Islam'' coming to power, which would be very problematic.
    Ms. Speier. Mr. Nelson.
    Mr. Nelson. It is the old adage, ``Be careful what you ask 
for, you just might get it.'' If we want democracy, then we 
have to let the countries vote the people they want into power.
    You can use the Turkey example from 2003, a democratic 
Turkey. The parliament voted not allow U.S. forces through 
Turkey into northern Iraq. We didn't like that answer at the 
time for the purposes, but that is what the democracy decided.
    So going forward, if you want democracy, which I believe is 
the key to stability over the long term in these nations, in 
the near term, it might be slightly more dangerous than we 
would like it to be.
    Ms. Speier. We have spent billions and billions of dollars 
in that region supporting dictators. With the internet and the 
ability to access information, I worry that you have got a very 
youthful population looking at us and thinking that we have 
unclean hands.
    So a number of you have spoken about economic aid. How do 
you think we should fashion aid that will actually get to the 
people that will generate the jobs that will then create the 
kind of environment that a democracy would flourish in?
    Mr. Katulis. First, if I could start, I would start with 
trade and economic development through the private sector, 
because I think we have done a lot of assistance to the Middle 
East and to some of the most impoverished countries. We are not 
very good at it, at this stage. I think the things that create 
jobs, I have noticed, in places from Pakistan all the way to 
Morocco, have been when the private sector can flourish.
    I think aid should be viewed as a bridge to helping these 
societies stand on their own, deal with the immediate crises. 
But if it is not viewed--if it is viewed as something more than 
a bridge, then we have got a problem. We will potentially 
perpetuate the cycles that we have lived through for the last 
30 or 40 years. So it has to be an integrated approach.
    If I could clarify, on the political Islam point, my point 
is this, is that as these societies open up--and I have seen 
this in my work on democracy promotion throughout the Middle 
East in the 1990s--you will have more parties that will 
participate that have an Islamist flavor.
    The notion that we can simply select and hand-pick secular 
democratic opposition is foolish, because Islam informs a lot 
of the political culture and, in fact, some of our best allies 
in the fight against terrorists have been rather Islamic.
    If you look at Turkey, if you look at Saudi Arabia, it is a 
country that is ruled by the Koran, and it has had different 
problems with terrorism, but to this day, I think most people 
would agree that on most issues, the United States and Saudi 
Arabia have been working closely on counterterrorism--it is not 
perfect--but they are a key ally.
    But back to your aid question. I think it is essential that 
we invest more in helping these societies stand on their own, 
but it needs to be connected to a long-term strategy that 
involves the free market and creating jobs that way.
    Ms. Speier. My time is up, but if you have some quick 
response, I would appreciate it.
    Mr. Joscelyn. Well. I would just say in Yemen, which I 
think you have highlighted very appropriately, is this great 
case where a lot of our aid has been tied to counterterrorism. 
We have seen that counterterrorism aid misused.
    Yemen is a country--it is a Kalashnikov country, where 
there are two to three guns for every man, woman, and child. 
You know, the average person earns $1 to $2 a day. They are 
running out of water. They are running out of oil. This is one 
of the most dire situations on the planet, I would say.
    The idea that you can just throw some money around for 
counterterrorism and ignore the greater long-term picture of 
what is going on there, I think, is foolish. That is basically 
what we are dealing with right now in Yemen.
    Keep this in mind, that President Saleh is growing more and 
more unpopular. As a friend of mine who lives in Yemen says, 
for the United States of America, President Saleh is the face 
of America in Yemen. So as all the problems are blamed on 
President Saleh for what is going on there, they see that we 
have not proposed anything in the longer term to really sort of 
address the real concerns that the average Yemeni has. That, I 
think is a big problem.
    That is where al-Qaeda and affiliated ideological groups 
can take advantage of the situation to basically say that 
America doesn't stand for anything beyond just these narrow 
interests of Saleh.
    Mr. Nelson. If I could, Ranking Member, one thing that is 
important, look at the comparison between Egypt and Yemen and 
Libya. We have invested hundreds of millions--billions of 
dollars in Egypt. We are seeing a return on that investment 
now, in that Egypt is relatively stable. We have an army that 
is maintaining stability. We are seeing that return on 
investment.
    Where we haven't invested, in Yemen and Libya, we are not 
seeing a return on investment. We haven't, but we are seeing 
very unstable areas.
    Mr. Mudd. A couple comments. I think the comment about 
trade is dead-on. If I were you, I would be thinking about aid 
in terms of trade policy. How do you allow people to export 
clothes to the United States, for example?
    The second--I am not a huge believer in aiding a country 
that has 85 million people, but if you are going to provide 
aid, let me be blunt, since I am out of government. A lot of 
the people who most effectively deliver services in these 
societies are Islamists. They deliver better medicine and 
better health care, better food sometimes, better emergency 
response.
    So one of the things I would be thinking about is, they are 
very efficient and they don't want to waste money. It is going 
to make people uncomfortable. I talk to them. So, you know, 
like I say, but the kind of aid you are talking about with the 
population sizes here, I think the much more significant issue 
is jobs, and you are not going to get jobs from aid.
    Mr. Meehan. Thank you. The Chairman now recognizes the 
gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you for the panel. This has been a very insightful 
conversation, and I thank you very much.
    Mr. Nelson, being a fellow rotor head, if you don't mind, I 
will pick on you first and pick your brain a little bit. You 
are the chairman of the Joint Chiefs of Staff. How do you 
advise the President right now in the current situation with 
Libya in how we are to engage?
    Mr. Nelson. I won't be so bold as to put myself in that 
position, as I retired as a commander, but--and I don't have 
all the operational intelligence to make that. But I would say 
what we need to do right now is we need to--the international 
community, not just the United States, needs to buy time in 
order to determine what exactly is transpiring on the ground. 
We need to understand who these rebel forces are before we 
commit resources further than what we already have.
    I guess we also have to make sure that there is not a 
humanitarian disaster, like a massacre or something like that, 
as well. So I think that the no-fly zone, I think some of the 
limited activities that have been mentioned in the media, to 
give us that--what is important.
    Mr. Cravaack. After analyzing that data, would you 
recommend a boots-on-the-ground strategy?
    Mr. Nelson. Absolutely not. I think that we have--what the 
last 10 years have shown us is that a large-scale military 
intervention regarding counterterrorism is not a politically 
feasible option or an economically feasible option these days.
    Mr. Cravaack. Okay. Thank you, sir.
    Mr. Mudd, that was a very insightful testimony. Thank you 
very much, really practical, down to Earth----
    Mr. Mudd. You made my day. My dad is watching.
    Mr. Cravaack [continuing]. Common sense. I am on T&I 
Committee, so I will take your mention for action here.
    One of the things that--the complexity of this problem is 
just overwhelming to me. So when it starts getting into the 
weeds, such as it is, I like to take a look at a 30,000-foot 
level and kind of look down. You kind of expanded on it.
    If you are the Secretary--and I know we are usurping 
privileges here--but if you are the Secretary of State, how 
would advise the President right now in dealing with the 
complexity of this region, rather than the individual 
countries?
    Mr. Mudd. I would say we have to engage. We have to make 
choices about who we are as a country. There are American 
values issues here at stake. The value is--and this comes 
partly as an American citizen, but partly as a counterterrorism 
professional. I don't want any more environments where kids are 
vulnerable to recruitment.
    So they are going to speak with a voice. First, we have to 
give them support to do that when they are in environments they 
are going to vote for people we don't like. Once they vote for 
people that we don't like, we are going to have to bite the 
bullet and say, look, we support elections. Sometimes that 
leads to discomfort. Pick your choice. If it is an autocrat who 
provides security versus a democrat who provides an election, 
pick your choice.
    The last thing I would say is, we have got to engage 
economically with people we don't like. So squeeze them with 
that money, but nonetheless talk to them.
    Mr. Cravaack. Do you think those lines of communications 
will remain open? Or do you think it will be such a situation 
like in Iran? That is what I am afraid of.
    Mr. Mudd. No, I don't think so. I mean, I think the 
revolutionary government in 1979 is different than the kinds of 
people you are looking at in North Africa. Let's not forget: 
They need investment badly. I mean, I spend part of my new 
professional career as a private citizen talking to companies 
that invest out there. They are all nervous.
    So that, on the one hand, you are talking about already--
look at Egypt--a decline in investment and a decline in 
economic performance, when you have people coming to power who 
are going to be elected to provide jobs. So what are those 
people coming to power going to say? They are going to say, 
``We need investment.'' Even if they are just uncomfortable 
with us sometimes, they need us.
    Mr. Cravaack. That kind of dovetails on my next point. We 
all know that a revolution has passion and has focus, but it is 
the mundane-ness of peace that is tough to keep. What you said, 
Dr. Katulis--if I pronounced it correctly--one of the things 
I--you made a, Ms. Speier said, a startling statement in 
regards to that we must start to consider political Islam.
    I have a question how you define political Islam. Do you 
consider it Sharia law as political Islam? If so, how would 
that--that is a theocracy. It is really not any type of 
democracy that I know of. How would that dovetail with the 
democracies of the United States?
    Mr. Katulis. Sharia law, no, if it means the repression of 
religious minorities, of women. In my testimony, my written 
testimony, I was very clear that there should be two bright, 
red lines. No. 1, any political Islamist movement that respects 
the Universal Declaration of Human Rights, the full range of 
political rights and civil liberties that you and I enjoy in 
this country, and, No. 2, non-violence, strict adherence to 
non-violence.
    You have many of these Islamist groups in countries like 
Turkey, Indonesia, Bangladesh, and the vast majority I think of 
the Muslim world, you have these actors. What I would hesitate 
to do is lump all of these trends together, which I think we 
did a couple of years into the global war on terror, and I 
actually think it was counterproductive, because some of our 
best allies in defeating the radical Salafists, the ones who 
turn to violence, will be those who are battling this in the 
Islamic world, and some of those will be Islamist parties.
    Mr. Cravaack. Just a real quick yes-or-no, does the Muslim 
Brotherhood embrace those democratic values?
    Mr. Katulis. It depends on who you are talking to. It 
really does. If I could--because you can't answer it as a yes-
or-no.
    Mr. Cravaack. Okay.
    Mr. Katulis. The Muslim Brotherhood is a diverse 
organization that spreads not only from Egypt to Tunisia, but 
in places like Jordan. I met with some of the leadership a 
couple of weeks ago in Doha, Qatar, and what struck me is that 
they are out of touch with their own base and out of touch with 
this new generation that could care less--this is my own 
impression--about some of their harangues of Israel and their 
statements about Sharia law.
    You have a new generation of Islamists potentially who 
represent demographically the majority of the populations in 
these countries. We don't know enough about these people who 
were involved in the Facebook revolutions. Many of them are 
Islamists and they don't like the old-line Muslim Brotherhood.
    So why I won't say yes or no is that I think all of these 
organizations, like all political organizations, are dynamic 
and are open to the possibilities of change. My view is, the 
more our nongovernmental organizations, the more, you know, 
groups like the National Democratic Institute, the 
International Republican Institute are able to engage them, you 
know, in unofficial contact, but to shape their agendas and 
push them to become more democratic, the better off we will be 
and these societies will be.
    Mr. Cravaack. Thank you, sir.
    Mr. Chairman, I will yield back.
    Mr. Meehan. Thank you, Mr. Cravaack.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, let me thank you again for 
your courtesy. I, too, want to add my appreciation for this 
hearing, along with the Ranking Member. I am just excited about 
your partnership with Ranking Member Speier. This is a very 
important committee.
    I am in between the Judiciary Committee, and I want to 
thank the witnesses, as well, and just begin on a note that 
reflects some of the testimony that I was able to hear. I 
simply want to say that I have had the privilege--I co-chair 
the Algerian Caucus and have the privilege of being in most of 
the Mideast countries that have been mentioned or engaged in 
the revolution that we now see, just came back from Israel and 
was, frankly, in Israel the day of the bus bombing that was the 
first bombing of that kind for about 7 years, although they are 
repeatedly receiving rocket fire now more than they have ever 
done before. So we live in different times.
    I happen to believe that there is something to this whole 
issue of engagement and negotiation. I want to raise my 
questions around that, particularly as it relates to Yemen and 
particularly as it relates to Libya.
    Egypt, for example, I think turned out differently for the 
very reason of their connectedness to the United States and, 
more importantly, when Mubarak had a chance to reflect this 
constant interaction with the West, training of his children in 
the West, had to have some impact on, do I really want to end 
this way? And he left. He made one commitment, is he didn't 
want to leave the country, and I understand that he is 
protected by the military, but he is on Egyptian soil. And we 
wish for them the best, but there will have to be a lot of 
investment in Egypt, as well, as they reconstruct their 
government.
    Yemen, I walked the streets of Yemen and have seen the 
throngs of unemployed young men who are boxed in on the border 
by Saudi Arabia, who will not allow them to cross anymore. The 
economy is in shambles, and they spend their time smoking khat. 
And I think that it is important that we try to understand the 
culture, because culture impacts, if you will, the National 
security of the United States and how we negotiate.
    So I would ask these questions, first, on Libya. Do we--I 
supported, as a progressive, if I might say, the cease-fire on 
humanitarian grounds. When I say the cease-fire, the no-fly 
zone. The question is: Do we have something to negotiate with 
now?
    Former Congressman Curt Weldon is in Libya as we speak. The 
Libyan government, Gadhafi was secular. Do we have the ability 
to have any level of negotiation? Will that be a value to us?
    I do think al-Qaeda has life. I think terrorism is 
franchised, and I don't think you need thousands to do damage. 
You can have one person who is either inspired or either 
calling themselves al-Qaeda.
    So let me start with you, Mr. Mudd. Negotiations with 
Gadhafi or his agents at this present state, is there any 
value? Does that have an impact on National security in the 
United States?
    Mr. Mudd. Yes, it does. I can't see a future with Gadhafi. 
We don't like to talk about regime change because it goes back 
to Iraq, but that is what we are up against. There is no way we 
are going to be sitting around in 2 years saying, ``Well, we 
negotiated a cease-fire, and the long-term solution is 
Gadhafi.''
    So if negotiation is to get him out of there, I think that 
is fine. If it is about continuation in power, I would say, 
heck no.
    Ms. Jackson Lee. Let me just--can I get quick answers like 
that? Because my time is running.
    Mr. Katulis. I agree.
    Ms. Jackson Lee. Okay.
    Mr. Joscelyn. Yes, no, I am in total agreement with that. I 
would also add that, in terms of negotiation, which I think you 
have rightly pointed out is very important, we should reach out 
to the Transitional National Council and the members there. 
Part of the point is, you talked about al-Qaeda having life in 
Libya and elsewhere. Part of the reason why we need to do that 
is work with the parties that are not al-Qaeda in order to 
bolster their hands in Libya and elsewhere.
    Ms. Jackson Lee. Sir.
    Mr. Nelson. Yes, I agree with Phil, just ensure that it is 
international involvement.
    Ms. Jackson Lee. Right. My point to the negotiations is, 
the negotiations can result in departure, but there needs to 
be--let's get in here and get this dialogue going so that we 
can reason our way out on either departure from government, 
allowed to stay somewhere. We understand aging despots who may 
want to be in the country.
    So I do think we have to find an endgame. I think that 
impacts our National security.
    Let me go straight to Yemen. I think it was you, Mr. 
Joscelyn, who mentioned--or someone mentioned the ugly face of 
the present leadership of Yemen, and that being in the United 
States. I truly agree.
    But there is a point about the idea of investing in a 
country and doing something constructive, meaning creating 
jobs, providing medical care. Are those elements of a face that 
provides us with an opportunity to improve our plight as it 
relates to our National security?
    Let me ask a follow-up question that is quite as strange. 
We have a gentleman who has the rights under the First 
Amendment who considers it his challenge and duty to burn the 
Koran. One of the ideas would be to completely ignore him, and 
most people were ignoring him and going about their daily 
business. It is difficult to ignore when you have the murder of 
seven U.N. officials, innocent officials, and mass confusion in 
Afghanistan.
    What do actions like that, in the face of our First 
Amendment rights--and as a lawyer, I know the Supreme Court 
decision that says you can't holler ``Fire'' in a crowded 
theater--I, frankly, believe statements are important about 
whether or not we value or accept the actions on that side of 
it.
    But what do those kind of actions do, as well, as we are 
trying to haul in a new image, but also haul in all these 
revolutions to make them at least geared toward the cultural 
democracy that would be best for them?
    Let me start at this end, which I think is--it is not in 
order, and I cannot see. Mr. Nelson, I am sorry.
    Mr. Nelson. Okay. Thank you very much for the opportunity 
to respond.
    As far as Yemen is concerned, it is important that they get 
a democratically elected government in place, that the people 
have to get ownership of their country back. The country has to 
go back to the point where they could have some semblance of 
stable government that goes out beyond the city of Sana'a.
    With that said, the solution in Yemen is going to be 
international, and particularly at GCC, a Gulf Coast there, 
Arabian Peninsula problem, where they need to continue to be 
encouraged to invest. Saudi Arabia gives $2 billion about a 
year and the UAE $1 billion. That is the kind of investment it 
is going to take over the long term to ensure that we can solve 
or at least help address some of the economic problems that 
drive this instability in Yemen.
    Again, as we see, when we don't invest in a country, the 
international community and the United States, we get 
instability. When we invest, we get stability.
    As per your second question, the Koran burnings are just 
not helpful. I am not a lawyer, so I can't, you know, just, you 
know, comment on the legality of it. I just think, again, as an 
American perspective, it is just not helpful.
    Ms. Jackson Lee. Not helpful.
    Mr. Nelson. It is not helpful at all, and it drives--it 
plays right into al-Qaeda's narrative. Al-Qaeda needs the 
narrative that the United States and the West are at war with 
Islam to survive, and every time a Koran is burned or something 
like that happens, we play into their narratives and we help 
al-Qaeda's message.
    Thank you.
    Ms. Jackson Lee. Can anybody just be quick? I thank the 
Chairman for his indulgence.
    Mr. Meehan. Yes, from the Chair, let me say, I think we are 
fortunate to have your opportunity here, and I would--I am 
pleased to indulge the gentlelady from Texas the time to allow 
you to elaborate on her question.
    Ms. Jackson Lee. You are very kind, Mr. Chairman, very 
kind. Thank you.
    Mr. Joscelyn. Let me just say, with respect to Yemen, you 
know, one of the issues that was brought up was trade and 
encouraging trade. The problem I have there--and I totally 
agree that we need to encourage free trade amongst all these 
countries and engage in trade with them--the problem I have 
with Yemen, which is what makes it such a dire situation, is I 
am not sure what Yemen's going to trade. You know, I mean, this 
is a nation that is really bankrupt in every way you can 
imagine.
    So--and there are problems, obviously, we know with dumping 
aid into Yemen or any country. There are all sorts of issues. 
But we have to do it in order to try and build something there 
that is beyond what we have today.
    Ms. Jackson Lee. Okay.
    Mr. Joscelyn. With respect to the Koran burning incident, 
obviously, this is not helpful. You know, basically a nut job 
pastor in Florida has, you know, set off an international 
controversy.
    You know, the idea there is, as he can exercise his First 
Amendment right to do that, I think we can exercise our First 
Amendment right to condemn him, you know, for doing that.
    But by the same token, I would highlight one thing real 
quick. Notice how our enemies were able to take this incident--
--
    Ms. Jackson Lee. Right.
    Mr. Joscelyn [continuing]. Which was by one guy who does 
not represent any sizable percentage of the American population 
and seize on that to justify mass murder. I think that is 
something in the communications war and the propaganda war that 
really has to be highlighted here. They were able to take this 
guy, who doesn't represent anybody, you know, besides himself 
and a few, you know, whatever in Florida, and, you know, 
basically turn that into a justification for mass murder.
    Mr. Katulis. Really quickly on the jobs and economic 
development, the one point I would like to stress is the need 
to have an integrated political and economic reform approach. 
In many countries I have worked, like Egypt, Pakistan, and 
other places, these are stovepiped in the U.S. Government and 
we kind of look at economic reform in one box and then 
political reform, largely tied to an electoral calendar, and 
the election in another box.
    Forcing the agencies--and I know this is not the purview of 
this committee, but I know you, ma'am, also focused on this in 
Pakistan and other places--really having an integrated 
approach, because oftentimes we don't look at how our economic 
assistance might benefit certain structures and centers of 
power and how that relates to the possibilities for political 
reform of their democratic system.
    That is a hard thing to do. We have never gotten it right. 
But where I first started in the Palestinian territories, in 
that small microcosm, I saw what I call our addiction to 
dictators. Yasser Arafat, we shoveled cash to him and his 
security services while there was a democratic opening, with 
the legislative council, and we were never really able to bring 
the two together in an integrated way.
    I don't want to speak too much on this fool who burned the 
Koran, but I would say it is notable that the most and sharpest 
reactions come in the places where you have weak and failing 
states, where there is this sense of a lack of strong national 
identity. We have seen this repeatedly in Afghanistan. It is 
astounding to me that nearly 10 years into Afghanistan, we 
still, after the hundreds of billions of dollars we have poured 
into there, we don't have state structures that are existent in 
there to help deal with these lawless areas, which I think 
relate to people's sense of who they are.
    When they see an incident like this, I think we have seen 
this in our own political culture, where the radical fringes 
play off each other. I agree with what Thomas has said here, is 
that we need to actually condemn it as strongly in as possible 
terms.
    Mr. Mudd. Quick thoughts on the Florida thing. I hate to 
even talk about it, but----
    Ms. Jackson Lee. I agree.
    Mr. Mudd [continuing]. I think that is--to me, as a non-
lawyer, it is a question of incitement and whether the law 
covers incitement. Free speech I believe in. Doing things that 
purposely lead to the killing of innocents, not so good.
    Second, on Yemen, there has been enough said about 
economics, but I agree with. A quick political comment that we 
haven't made, that country was divided until relatively 
recently and faced multiple international security challenges. 
I am not an expert on Yemeni tribes here, but I would be 
thinking about ensuring, if we go down the road as we are of 
ousting him and going to elections, of ensuring that we think 
about what happened in Sudan, because I have got to believe 
there are people who are going to be saying we don't want to 
live together anymore and how do we deal with that?
    Last, since I have the mike for a moment, somebody was 
asking earlier about things we could do and things this 
committee might do. For all these places that are 
transitioning, it is a small issue, but in my view significant 
for the future, I would be looking at how many slots we provide 
incoming military officers in U.S. training programs here in 
the United States, you know, lieutenant colonels, colonels. 
Those folks come and get trained on how democratic societies 
work and, furthermore, down the road, they become very good 
interlocutors for the United States.
    It is a small issue, but those schools are tough to get 
into. That would be a great program for us.
    Ms. Jackson Lee. Thank you so very much. That is a very 
good point. Those are very effective schools.
    I yield back. Thank you.
    Mr. Meehan. Thank you.
    At this point in time, I would like to recognize the 
gentleman from Missouri--or ``Missouri,'' depending on which 
part of the State you are from--Mr. Long.
    Mr. Long. Thank you, Mr. Chairman. I am from ``Missouri,'' 
for the record.
    I want to thank you all very much for your testimony here 
today and taking time to be here with us. Start with Mr. Nelson 
and just work down, if I can, with kind of the same question 
for all of you. How legitimate do you think that the worries 
are about al-Qaeda opportunistically inserting themselves in 
the Libyan civil war? Is our involvement there going to 
exacerbate that?
    Mr. Nelson. Again, I think that--thank you very much for 
your questions--I think that al-Qaeda will insert itself in the 
civil war, to the extent it will try to recruit and the extent 
that it will try to carve out some sort of area of operation 
for training and operations and planning. Again, I do not think 
that al-Qaeda will once or will put itself in a position to 
take any sort of governance role in Libya.
    Your second question was on the----
    Mr. Long. I just said that, if they--our involvement there, 
does that--I can't pronounce it--exacerbate the problem?
    Mr. Nelson. Well, that is a very----
    Mr. Long. Or is our involvement in Libya, is that just 
going to be another reason--of course, they are going to be 
taking advantage everywhere they can--but do you think that our 
involvement there is going to help that effort for al-Qaeda?
    Mr. Nelson. It is a great point, and I think we have to 
balance that. It cannot be a U.S. heavy-handed presence in 
Libya. It needs to be international, encouraged the Europeans 
want to take lead on this, support the Europeans taking lead or 
at least the international community taking the lead. A heavy 
U.S. presence in Libya could serve to undermine our strategic 
goals, as some of the other panelists and Members have stated.
    Mr. Long. Okay, thank you.
    Mr. Joscelyn.
    Mr. Joscelyn. I would agree with what Mr. Nelson said. I 
would say that, you know, if you look at--for example, I would 
say al-Qaeda already is there in Libya. They are already 
players. They are not the dominant players, but in terms of the 
muscle of the opposition, there are worries some reports that 
they are, in fact, training and heavily involved.
    In fact, I was reporting on this former Guantanamo detainee 
who had--allegedly started serving Osama bin Laden in the 1990s 
who, in fact, is training some of the rebels in Darnah, 300-
strong crew. That is very worrisome.
    Mr. Long. That is the people we are helping?
    Mr. Joscelyn. Well, I would be careful, because, see, the 
thing is that there are multiple parties in the opposition, 
okay? In the National Transitional Council, for example, you 
can look at the leadership there, they are not al-Qaeda. They 
are the types of people that we should be engaging, negotiating 
with, encouraging, trying to help as we can.
    The problem is, if you were to talk about U.S. involvement 
to the extent to where we are going to have, you know, boots on 
the ground, for example, I think you would very quickly find 
that we would exacerbate the problem. You would have places 
like Darnah where we would be fighting a counterinsurgency, 
which would be very problematic.
    So I think it depends on how America moves forward, how the 
United States actually looks to approach the opposition. We 
have to be very careful in terms of, you know, what we are 
calling for to do. I think that the terms of--you know, there 
our leaders in the opposition that are worth engaging, worth 
working with, but others we have to try and ostracize or 
minimize.
    Mr. Long. Okay. Thank you.
    Mr. Katulis. Yes, I mean, clearly, al-Qaeda in some 
presence is part of the rebel group. I had the leader or the 
representative of the Libyan opposition at my center on Monday 
for discussion. He is the former ambassador of Libya to the 
United States. It was clear to me that he didn't know what the 
command-and-control structures were among the military. There 
is a lot of lack of clarity.
    That is why I am glad at these reports that we have CIA 
agents on the ground, people representative from the CIA. I 
hope they were there for a long time, because we don't know 
what we don't know in eastern Libya at this point. I would 
strongly oppose boots on the ground. I think it would help 
become a rallying cry--Libya become a rallying cry for al-
Qaeda. I would oppose arming the rebels at this point, because 
we just don't know who they are.
    Mr. Long. Thank you.
    Mr. Mudd. Quick comment. I think al-Qaeda is probably a 
chump change player in the opposition right now and wouldn't be 
top on my list of things to worry about. I think that would 
change if there was a presence on the ground as opposed to in 
the air, and I think it would change significantly.
    What we haven't mentioned here is that, especially eastern 
Libya, but North Africa in general was overrepresented with 
foreign fighters going into Iraq a few years ago. So folks 
right now are saying, ``We like this air cover.'' Remember, a 
few years ago, they were saying, ``Let me go to Iraq and kill a 
bunch of Americans,'' so that is a tenuous level of support we 
have out there.
    But I think there would be popular opposition to an 
American presence. It is not just the al-Qaeda guys. You would 
be facing a serious problem on the ground.
    Mr. Long. Okay, thank you. I appreciate your comments very 
much, and I yield back, Mr. Chairman.
    Mr. Meehan. Thank you, Mr. Long.
    With the unanimous consent of the committee, at this point, 
I am asking indulgence as the Chairman just to ask one more 
very limited amount of questions myself, because of some of the 
issues that you have raised up, and then we will close down the 
hearing.
    But I am very intrigued by the idea of us--of your 
proposals to look as one of the ways we address us developing 
the economies in those regions, and particularly the concern 
that, Mr. Mudd, you have pointed out about the disparity that 
we have, where there are so many sort of youths that are in 
those areas that don't have any kind of long-term prospect.
    But look at the most flourishing not just democracy, but 
economy we have in that region as being tied to Israel. How do 
we reconcile the fact that we have got to be concerned about, 
you know, the growing tension that exists with numbers of 
these--especially, you know, Hezbollah, Hamas, others that may 
actually be more encouraged if we see some of this expansion of 
room for them to move, while simultaneously they threaten 
Israel?
    Mr. Mudd, do you have a thought, or anybody else, on that 
particular issue?
    Mr. Mudd. Yes, quickly, you know--this is going to be 
painful--but groups that take power sometimes feel 
accountability in ways that constrains them from acting--what 
am I saying? When groups come to power, sometimes they get to 
be realistic.
    These guys may not like Israel, they may not like us, they 
may have indifferent attitudes toward us. Their primarily 
responsibility is they just sparked a revolution where people 
are saying, ``Hey, great. Now we have political change. Where 
is my job?''
    So I wonder whether--you know, as you look at Hamas, I 
would say they are more realistic than they were 10 years ago, 
still not people we like, but, heck, they got voted in, and 
they are--the guys firing rockets off into Israel now aren't 
Hamas. This is Islamic Jihad.
    So I think one of the answers is, people are going to vote 
them in. Get over it, until they prove otherwise. The 
alternative is to say, well, yet again, we supported autocrats, 
but when the democrats vote, we don't like them. We can't be 
there.
    Mr. Katulis. I was in Israel the week Hosni Mubarak stepped 
down as president of Egypt, and there is serious concern about 
the loss of strategic partnerships there. But I think there is 
a recognition that the changes are coming in the Middle East 
purely because of demographic, economic, and political 
pressures, and that we need--Israel needs to change its view to 
a certain extent.
    I would--I am glad you mentioned Hamas and Hezbollah. I 
would dig a little bit deeper. I think there are some immediate 
threats coming from some of the Salafist jihadist groups that 
are in the Gaza Strip right now, including Jaysh al-Islam and 
Jund Ansar Allah. These are groups that actually are 
challenging Hamas' grip in the Gaza Strip. I think they are, 
you know, affiliated with Islamic Jihad.
    Mr. Meehan. Do you think that they could serve as a 
counterbalance, be sufficient to be able to not only deal as a 
political voice, but to be able to back off what we are seeing, 
and we are seeing rockets from Gaza right now?
    Mr. Katulis. No, these are the guys that are responsible 
for the rockets. What I am saying is that Hamas, they are more 
pragmatic, building on what Mr. Mudd said. There are some 
voices in Hamas that are much more pragmatic, because they are 
feeling pressure. You know, there is internecine violence among 
these Islamists.
    My worry today--and my top worry is Yemen. We have all 
talked about that, for the U.S. homeland security. My second 
leading worry in the Middle East right now is not necessarily 
Libya, because I think that will play itself out in a certain 
way, and it is still unclear. I think there are real clear 
signs that there could be another regional war or some sort of 
conflict of the sort that we saw in 2006 on multiple borders of 
Israel. This could spark in many different ways.
    In some ways, we have already seen it in the last couple of 
weeks with some of these rockets into Israel and a response 
from Israel. That is a spark that I think could lead to a wider 
conflagration in the Middle East at a time where I think the 
Obama administration is doing the best that it can, but, again, 
it is in a tactical reactive crisis management mode.
    The last thing I would say--somebody asked, if Phil was 
Secretary of State, what would you do? I think the one thing 
that is missing from this Presidency--and I support him on many 
issues--is the lack of broader long-term vision, what we are 
talking about in this committee here, of where do we see the 
Middle East in about 10 or 15 years?
    We, I think, lack concrete long-term goals for the region. 
We have interests we talk about. We talk about reacting to 
situations in the Middle East. But what I think we need to hear 
from this President is, how do all of these pieces fit together 
in a broader strategy that will help this region move through a 
transition in its own way?
    He tried to do that a bit in his Libya speech a week ago or 
so, on Monday, but he didn't succeed, in my view. We should 
press this administration on how it is going to deal with this 
region strategically.
    Mr. Joscelyn. Your question actually raises an interesting 
thought. In the last several weeks, I have been talking to 
people I trust, analysts who follow these things very closely, 
inside government, who I--and they send me things that they say 
are--they are in open source they say I should read.
    One of the things they sent me was an account in the Asia 
Times by a Pakistani journalist named Syed Shahzad, who is very 
piped in to sort of what is going on, on the ground in northern 
Pakistan, I would say much more so than most journalists.
    His account I would encourage every Member of this 
committee to read, and I can forward it to you to read. It, in 
fact, raises the possibility--and I have seen some evidence of 
this myself in al-Qaeda's public writings--that they are 
currently undergoing a transition in terms of debate internally 
of how they are going to position themselves for the long term.
    What is happening is there are some people in al-Qaeda, 
including leadership members who just returned from Iran in the 
last couple years, who are arguing that al-Qaeda needs to be 
more like Hamas, more like Hezbollah, more patient, more cagey, 
in terms of how they come to acquire power and consolidate 
their power.
    This is worrisome in a variety of ways, because I think 
that, you know, while the nihilistic brand of al-Qaeda, the 
dead-ender brand of al-Qaeda certainly had mass appeal to a 
certain extent in the Muslim world, although not nearly 
anywhere close to a majority--you know, there was a significant 
minority that supported it--that tactical shift that al-Qaeda 
could go through could, in fact, allow it to consolidate power 
and become an even more worrisome enemy.
    That is who I think you have to worry about here. You could 
see this in--you know, I think it was Ranking Member Speier who 
brought up al-Qaeda in the Arabian Peninsula's most recent 
edition of Inspire. You can actually see traces of this debate 
there in Inspire, where Anwar Awlaki is basically arguing that, 
you know, we need to do things a little bit differently, but at 
the same time try and take credit for what is going on and say, 
you know, al-Qaeda does have some cards here to play.
    I would take a look at that very carefully if I were in 
your shoes, in terms of how al-Qaeda adjusts its strategy going 
forward.
    Mr. Meehan. Thank you, Mr. Joscelyn.
    Mr. Nelson, my time is up, unless you have a very quick 
observation. Just with unanimous consent, I will turn it to Mr. 
Cravaack for one last, quick question.
    Mr. Cravaack.
    Mr. Cravaack. Only one? This has been a great, great 
dialogue. Once again, I really appreciate it.
    We touched a little bit about Israel. Can we ever have a 
developing relationship with some of these different factions? 
Because we are always going to support Israel. Can we ever have 
an open dialogue with these different factions? You kind of 
stole some of my thunder of what the Middle East is going to 
look like in about 4 or 5 years. Can we have a dialogue with 
them and be able to support Israel at the same time?
    So I was wondering if you could comment on that.
    Mr. Katulis. Well, I think the simple fact of the matter 
is, we already do have a dialogue with them, not the 
governments, but the non-government to non-government dialogue. 
Understanding them and understanding the motivations of the 
variety of Islamist groups I think is important to do. I am not 
so keen on, you know, sending our ambassadors to--particularly 
when I talked about those red lines.
    Those groups that don't support a non-violent agenda and 
that don't support the full basic human rights, I don't think 
our Government should be in any business of dealing with them 
in any official capacity, as much as possible.
    What I do think we need to do is get smarter, particularly 
with this under-30 crowd, because we don't know anything about 
the Facebook revolutionaries in Tahrir Square. Some of them are 
Islamist, some of them aren't.
    I lived and worked in Egypt in 1997-1998, and this is the 
generation that is coming to power, and I think, at the end of 
the day, we are already engaging them in some sort of way, best 
to be done by nongovernmental organizations that understand and 
appreciate freedom and democracy as ideals and push them into a 
political context where they actually--those that are most 
extremist drop that, drop the violent kind of agendas.
    We can engage in that sort of way, and it need not be just 
the U.S. Government.
    Mr. Cravaack. I think I agree with Mr. Mudd. In some of the 
travels I had in the Navy, the majority of people in this 
world--90 percent of us--just want to have a safe place to 
raise our kids, have a halfway decent job, have clean water to 
be able to drink, and be able to just have a halfway decent 
life.
    I think by promoting that, I think it will be great 
inroads. But the question I have is, the Middle East that you 
see in about 4 or 5 years, can we have direct dialogues with 
these--whoever is going to emerge--and still, you know, be 
supporters of Israel, as well, and hopefully be able to squelch 
what is going in the Middle East right now?
    Mr. Katulis. I think we can, but we have to be realistic 
about how easy it is going to be, because it is not going to be 
very easy. You are increasingly going to see countries that I 
think are like the Turkish government, which I think is a 
strong ally on some issues, but actually is quite difficult to 
deal with on other issues, like Iran, like Israel, and other 
things.
    This will require a different way of thinking about 
statecraft and diplomacy in the Middle East. Rather than black 
and white, we are going to have to engage in shades of grey and 
align our policies with new types of governments and try to 
shape and influence them.
    I think the notion that we can just simply isolate 
countries for a long period of time, I think the strategic 
thrust of what we do in the Middle East over the next 5 years 
should be trying to connect this region with the rest of the 
world. This region has been largely left behind by the waves of 
globalization, and also trying to deal with the internal 
divisions within the region, up to and including the Arab-
Israeli conflict.
    As difficult as that is today--you know, Shimon Peres, the 
president of Israel, is in town--I think we need to keep the 
notion of a comprehensive Arab-Israeli peace alive, as grim as 
it looks today, because you won't have that integration of the 
Middle East with the broader part of the world. You will see a 
different face of leadership, and my answer to you is that we 
can shape and change that leadership through smart engagement 
with those who come to power.
    Mr. Cravaack. Yes, my hope is that we can all agree to 
disagree, but live in peace. That is my hope for the region.
    Mr. Mudd, real quick, Mr. Gadhafi, last gasp of trying to 
maintain power, do you see him using weapons of mass 
destruction as a tool?
    Mr. Mudd. No, I do not, unless you are talking about things 
like tear gas and chemicals to keep people off the streets. But 
I don't think so. I think, actually, he is doing all right, 
right now, and it is going to take a heck of a move to get him 
out of there.
    Mr. Cravaack. Okay. Thank you, sir.
    I will yield back, Mr. Chairman.
    Mr. Meehan. Well, thank you, Mr. Cravaack. Thanks to each 
of our panelists for very, very valuable testimony. I 
appreciate not just the work that you put into preparing 
testimony for here, but for each of you, the work that you put 
in to your study of this very important region. It has been a 
great value to those of us on the committee.
    Members of the committee may have some additional 
questions, and if they do, they will ask you to be responsive 
in writing if they do. The hearing record will be open for 10 
days.
    Thank you for being here today. Without objection, the 
committee stands adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
